<html>
<title> - SURFACE TRANSPORTATION REAUTHORIZATION: THE IMPORTANCE OF A LONG TERM REAUTHORIZATION</title>
<body><pre>[Senate Hearing 114-207]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-207

                SURFACE TRANSPORTATION REAUTHORIZATION:
             THE IMPORTANCE OF A LONG TERM REAUTHORIZATION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY AND SECURITY

                                OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                           U.S. GOVERNMENT PUBLISHING OFFICE
99-568 PDF                     WASHINGTON : 2016                           

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a>       
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY AND SECURITY

DEB FISCHER, Nebraska, Chairman      CORY BOOKER, New Jersey, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
ROY BLUNT, Missouri                  CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
JERRY MORAN, Kansas                  RICHARD BLUMENTHAL, Connecticut
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
RON JOHNSON, Wisconsin               EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
STEVE DAINES, Montana
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 5, 2015......................................     1
Statement of Senator Fischer.....................................     1
Statement of Senator Booker......................................     2
Statement of Senator McCaskill...................................    34
Statement of Senator Ayotte......................................    36
Statement of Senator Klobuchar...................................    38
Statement of Senator Cantwell....................................    40

                               Witnesses

Senator Curt Bramble, President Pro Tempore, Utah State 
  Legislature; President-elect, National Conference of State 
  Legislatures...................................................     4
    Prepared statement...........................................     6
Nick Yaksich, Vice President, Association of Equipment 
  Manufacturers..................................................    13
    Prepared statement...........................................    15
Janet Kavinoky, Executive Director of Transportation and 
  Infrastructure, U.S. Chamber of Commerce; Vice President, 
  Americans for Transportation Mobility Coalition................    16
    Prepared statement...........................................    18
Hon. Brian C. Wahler, Mayor, Piscataway Township, New Jersey and 
  President, New Jersey State League of Municipalities...........    26
    Prepared statement...........................................    28

 
                         SURFACE TRANSPORTATION
     REAUTHORIZATION: THE IMPORTANCE OF A LONG TERM REAUTHORIZATION

                              ----------                              


                          TUESDAY, MAY 5, 2015

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety and Security,   
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:40 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Deb Fischer, 
Chairman of the Subcommittee, presiding.
    Present: Senators Fischer [presiding], Ayotte, Sullivan, 
Johnson, Booker, Cantwell, McCaskill, Klobuchar, Blumenthal, 
Schatz, and Manchin.

            OPENING STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. The hearing will come to order.
    Good morning. I am pleased to convene the Senate 
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security for our sixth hearing, 
titled, ``The Importance of a Long Term Reauthorization.''
    Although some may say we are not moving forward on 
infrastructure, I would point out that today's hearing is the 
third in a series on the reauthorization of our Nation's 
surface transportation programs. Our hearing will highlight the 
importance of a long-term transportation reauthorization. 
Senators will hear perspectives from local and state officials, 
manufacturers, and private businesses on the importance of 
long-term transportation policy.
    As many of you here know, at the end of this month, 
authorization for surface transportation programs will expire. 
A short-term extension is highly likely.
    According to the latest projections, by August, the Highway 
Trust Fund will run out of money. The time for action is now.
    Although the United States leads in so many areas, we are 
falling behind when it comes to our Nation's infrastructure. 
Our highways and bridges are in need of investment. In 2013, 
the American Society of Civil Engineers, the ASCE, issued a 
report card on America's infrastructure, giving our roads a 
grade of D and our bridges a grade of C-plus.
    States and local governments need more tools at their 
disposal to address the growing challenge of sustaining local 
infrastructure and transportation systems. As one state 
department of transportation director recently testified before 
this subcommittee, states allocate limited transportation 
resources by need versus want, but based on which projects must 
be initiated now versus those that can be delayed.
    The Nation's economy depends on an efficient and reliable 
transportation network. With expanding global trade volumes, 
America's economic growth will depend on the resilience of our 
intermodal surface transportation system.
    With the upcoming transportation reauthorization, we must 
keep in mind that nearly 95 percent of all consumers reside 
outside the United States. Without adequate infrastructure, 
U.S. manufacturers and businesses are going to pay the price in 
delayed or missed shipments and lost market share abroad.
    As Congress looks to reauthorize surface transportation 
programs, we must ensure that transportation regulations meet 
their intended safety goals by providing as little economic 
harm as possible. Congress must hold regulators to a higher 
standard, particularly when it comes to balancing the goals of 
safety with the cost of regulatory compliance.
    It is key that we incorporate innovative approaches and 
technology into our regulatory framework. For example, Congress 
should continue on the path that MAP-21 created for 
performance-based standards for grants and safety regulations. 
Performance targets will allow agencies to better allocate 
already scarce transportation resources and encourage private 
sector innovation.
    Each day, American families, consumers, workers, and 
businesses depend upon a safe and reliable transportation 
system. I look forward to working with my colleagues in the 
Senate and with stakeholders to find a long-term, sustainable 
approach for addressing our Nation's transportation needs.
    I would now like to invite Senator Booker, my Ranking 
Member, to offer any opening remarks.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you, Senator Fischer. I am grateful 
for your leadership, especially on this issue.
    I'm grateful for the panel being here.
    I have to say, I have been a Senator now for 18 months, and 
my frustration with our approach to infrastructure as a Nation 
just grows with every day. Here we are now approaching a moment 
when our transportation funding is about to end. That is bad, 
in and of itself, but what is even worse, in talking to leaders 
all across my state and in the Northeast region, is the 
frustration that you cannot do long-term planning and 
investment without a sustainable, reliable funding mechanism 
and knowing what the future budgets are going to be.
    This is no way to run a country. In fact, if this was 
America, Inc., we would be liable for shareholder lawsuits, 
because we are not making critical investments in our 
infrastructure, which is one of the best uses for the 
investment of a taxpayer dollar when it comes to returns on 
investment. Every dollar invested in infrastructure nationally 
produces more than a 40 percent return in economic growth. And 
in the Northeast region, Newark, I say--some people call it the 
greater New York City region--in which I live, it is actually 
far more than that kind of return.
    We have inherited this incredible infrastructure system 
from our grandparents. It is as if we inherited the nicest 
house on the block and then trashed our inheritance and are 
about to pass it over to our children with an incredible multi-
trillion-dollar worth of debt within the infrastructure.
    We were ranked number one around the globe. Now we are 
ranked around number 18 in the quality of our infrastructure. 
We must begin to get back to putting America first, and that is 
investing in our physical plant, our infrastructure, which will 
ensure long-term growth.
    Now we have an urgent need for infrastructure in all parts. 
I am glad for the partnerships with Senator Fischer and others, 
who are exploring ways to do this better with more 
accountability and more transparency.
    I want to highlight, very quickly, the urgent need, number 
one, for passenger rail. Yesterday, thanks to the Chairman and 
Ranking Member, I held a field hearing in Newark, New Jersey. 
We talked and heard from people from Amtrak, the Federal 
Railroad Administration, regional planners, and labor groups 
about how important infrastructure investment is to New Jersey 
and the economic prosperity of the region.
    Passenger rail in the Northeast Corridor has more 
passengers than all the airlines combined. Yet we do not 
proportionately invest in it.
    There is also an urgent need to invest in a freight 
program. The Port of New Jersey and New York is the busiest 
port on the East Coast, and demand is expected to continue to 
grow in the coming years. The port is a critical component of 
the freight corridor that runs through New Jersey from New York 
to Philadelphia. The corridor moves $55 billion worth of goods 
each year. And that freight area, that port is connected to 
over a quarter million jobs, directly or indirectly.
    This is a crisis that we have in our country, and the 
people it is hurting most are people who are trying to do 
business. The economic vitality of our Nation is being choked 
by an inadequate infrastructure. Working families are paying 
the price.
    The heavy congestion, wear and tear on roads, and 
insufficient investment is hurting New Jersey families. 
According to a recent report, New Jerseyans themselves lose 
about $2,000 per year because of poor road conditions, 
congestion, and accidents.
    The time for action is now. But, as Senator Fischer said, 
the time for intelligent action, learning from the past, doing 
it right, doing it with long-term vision, and doing it in a way 
that is reliable for public-private partnerships to come about 
to invest in infrastructure, is well past time.
    So I am grateful to the Chair of this subcommittee for her 
leadership. I'm excited today to hear from our panel, which I 
think will be a chorus of conviction to the points that I've 
already made.
    And, with that, I will turn it back over to my Chairperson.
    Senator Fischer. Thank you, Senator Booker. I would like to 
welcome our panel of witnesses today and thank them for their 
testimony and ask you to give your opening remarks.
    We will begin with Mr. Bramble, who is the President-elect 
of the National Council of State Legislatures and the President 
Pro Tempore of the Utah State Senate.
    Welcome.

STATEMENT OF SENATOR CURT BRAMBLE, PRESIDENT PRO TEMPORE, UTAH 
  STATE LEGISLATURE; PRESIDENT-ELECT, NATIONAL CONFERENCE OF 
                       STATE LEGISLATURES

    Mr. Bramble. Thank you, Chairman Fischer, Ranking Member 
Booker, and distinguished members of the Senate Subcommittee on 
Surface Transportation and Merchant Marine Infrastructure, 
Safety, and Security.
    As noted, my name is Curt Bramble, President Pro Tempore of 
the Utah Senate and President-elect of the National Conference 
of State Legislatures. I appear before you today on behalf of 
NCSL, a bipartisan organization representing all the 
legislatures of our states and territories.
    Madam Chairman, I would like to take this opportunity to 
thank you and the Committee for your leadership on the 
important issue of surface transportation reauthorization. I 
also would like to note for the record that it was an honor and 
pleasure serving with you during your time as a state senator 
in the 3 years that we served together on NCSL's executive 
committee.
    As we all know, on May 31, authorization for Federal 
surface transportation programs will expire and the Highway 
Trust Fund is set to become insolvent shortly thereafter. 
Surface transportation reauthorization is a top priority for 
NCSL and state legislatures across the country. It is not only 
critical to the movement of people and goods, but also brings 
with it job creation and economic growth.
    While my written testimony addresses a number of key policy 
issues pertaining to reauthorization, if this committee doesn't 
remember anything other than the next three points, my 
testimony will have been successful: first, the need for 
Congress to provide sustainable, predictable funding with 
flexible financing opportunities; second, the need to ensure 
the continuation of a state-administered Federal aid surface 
transportation program; and third, the need to explore 
alternatives to fuel taxes as a funding source for 
transportation.
    To expand on these, NCSL encourages Congress to ensure the 
continued solvency of the Highway Trust Fund while committing 
to adopt a long-term agreement on surface transportation 
funding.
    The uncertainty that pervades short-term extensions makes 
it extremely challenging for states to adequately plan and 
achieve their performance targets, considering that many 
transportation infrastructure projects require multiyear 
commitments.
    Due to the uncertainty of Federal funding and short-term 
extensions of MAP-21, Utah withheld one-third of our bid-
letting for the current year. We anticipate 25 projects with a 
total of $65 million will be deferred to next year. These 
delays have a harmful impact on the state's broader economy.
    I cannot overstate the negative impact this uncertainty 
creates.
    Despite Federal inaction, state legislatures in more than a 
quarter of the states, including my home state of Utah, have 
stepped forward to invest billions of dollars so that we can 
both repair and upgrade our Nation's surface transportation 
assets to ensure their continued safety and viability.
    However, the significant steps taken by many states should 
not be misconstrued. NCSL is a strong supporter of the Federal 
Government's role in a national surface transportation system. 
We fully support the continuation and preservation of a Federal 
aid surface transportation program that provides flexibility to 
states to address unique regional issues.
    Finally, I would like to quickly touch on the 800-pound 
gorilla: how to pay for these necessary investments. NCSL 
believes the next long-term reauthorization should provide for 
a more sustainable funding mechanism that maintains a Federal 
trust fund financed by user fees. We urge Congress to support 
state-level pilot programs to explore transportation funding 
alternatives to fuel taxes.
    In Utah, I recently helped lead efforts to bolster our 
state surface transportation funding to ensure the continued 
success of our state infrastructure system. The decision was 
not an easy one, nor was it taken likely. Our motor fuel taxes 
had been in the same amount per gallon since 1997 and had lost 
49 percent of their buying power due to inflation.
    In addition, while we have more miles of road, more cars, 
and more vehicle miles traveled over that same period of time, 
our total fuel consumption has remained flat. It has remained 
constant. It has not increased.
    We have a static rate applied to static base, which does 
not support our necessary long-term expenditures. Given the 
requirements of increased fuel efficiency, the growth in hybrid 
electric and other alternative fuel vehicles, and a static 
funding system that fails to adequately address demand, we need 
a new approach.
    Additionally, although the major funding portion of the 
bill was similar to a sales tax, we also included provisions 
for directing our Utah Department of Transportation to study 
road usage fees, similar to a pilot program in Oregon.
    Madam Chairman, throughout the history of our country, 
transportation infrastructure has played an integral role in 
the success of our economy. Article 1, Section 8, of the United 
States Constitution notes that it is the duty of the Federal 
Government to provide support for national transportation 
investment. Strong Federal support for the development of 
roads, canals, and highways has supported economic development 
throughout the history of our country.
    As we approach the 100-year anniversary of the Federal Aid 
Road Act, it is this partnership that has enabled the United 
States to build a surface transportation network envied by the 
rest of the world.
    I thank you for this opportunity to testify before your 
subcommittee. The importance of a long-term reauthorization 
cannot be overstated.
    Along with states, the Federal Government plays a vital 
role in supporting our national surface transportation system. 
State legislators stand ready to work with Congress as it 
continues to develop a long-term successor to MAP-21.
    I look forward to questions from members of the Committee. 
Thank you very much.
    [The prepared statement of Mr. Bramble follows:]

  Prepared Statement of Senator Curt Bramble, President Pro Tempore, 
 Utah State Legislature; President-elect, National Conference of State 
                              Legislatures
    Chairman Fischer, Ranking Member Booker and distinguished members 
of the Senate Subcommittee on Surface Transportation and Merchant 
Marine Infrastructure, Safety and Security, my name is Curt Bramble, 
President Pro-Tem of the Utah Senate and President-elect of the 
National Conference of State Legislatures (NCSL). I appear before you 
today on behalf of NCSL, the bipartisan organization representing the 
50 state legislatures and the legislatures of our Nation's 
commonwealths, territories, possessions and the District of Columbia.
    Madam Chairman, I would like to take this opportunity to thank you 
and the Committee for your leadership on the important issue of surface 
transportation reauthorization, not just with today's hearing, but with 
the Committee's hearing earlier this year on reauthorizing of highway 
safety programs. I would also note that it was an honor and pleasure to 
serve with you during your time as a state senator including the three 
years we both served together on NCSL's Executive Committee.
Infrastructure Priorities
    Before I begin a more specific discussion on the importance of 
surface transportation reauthorization. I would like to highlight for 
the Committee that transportation infrastructure and funding is one of 
NCSL's top nine priorities for the 114th Congress. NCSL maintains its 
strong support for infrastructure programs and will work to ensure that 
all funding and financing options remain available to states to 
continue the economic benefits that infrastructure programs provide. As 
part of this priority, NCSL has maintained a strong and detailed 
Surface Transportation Federalism Policy Directive, which was 
unanimously approved by our organization, showing wide bipartisan 
support. A copy of that policy directive is included as an appendage to 
my testimony and I ask that it be included as part of the record for 
today's hearing.
The Urgent Need for a Long-Term Reauthorization
    As you know, on May 31, authorization for Federal surface 
transportation programs will expire and the Highway Trust Fund is set 
to become insolvent shortly thereafter. NCSL urges Congress to ensure 
the continued solvency of the Highway Trust Fund (HTF), while 
committing to adopt a long-term agreement on surface transportation 
funding as part of a multi-year reauthorization of the Moving Ahead for 
Progress in the 21st Century Act (MAP-21). Although the enactment of 
MAP-21 in 2012 put a brief end to the numerous short-term extensions 
that followed the expiration of the Safe, Accountable, Flexible, 
Efficient, Transportation Equity Act: A Legacy for Users (SAFETEA-LU) 
in 2009, it unfortunately seems that Congress may return to this 
pattern. The uncertainty that pervades short-term extensions makes it 
extremely challenging for states to adequately plan and achieve their 
performance targets especially because many transportation 
infrastructure projects require a multi-year commitment. It is 
difficult for me to overstate the negative state impacts this 
uncertainty creates.
    Like other cold weather states, Utah's highway construction is 
seasonally driven by the weather and temperatures, limiting 
construction activities during colder months. Bid lettings are 
scheduled at the ``right time'' to maximize competitive bids and take 
into account the capacity of contractors to prepare bids for multiple 
projects at any one time. Accordingly, projects are put out to bid 
throughout late fall, winter, and early spring to prepare for the 
annual summer construction season. Utah's goal is to have 100 percent 
of the program bid by May each year. Due to the uncertainty of Federal 
funding and short-term extensions of MAP-21, Utah withheld one-third of 
our bid letting for the current year. Even if Congress extends 
authorization of MAP-21 beyond the current May 31 expiration, a portion 
of the 2015 construction program will be lost. While we could resume 
bidding activities later, it will be too late for larger paving 
projects. We anticipate 25 projects with a total value of $65 million 
will be deferred to next year. These delays have a harmful impact on 
the state's broader economy.
    Despite Federal inaction, over the past two and half years, state 
legislators in more than a quarter of states, from Maryland and 
Virginia to Iowa and my home state of Utah, have stepped forward and 
invested billions of dollars to repair and upgrade our nation`s surface 
transportation assets to ensure their continued safety and viability. 
However, the significant steps taken by many states should not be 
misconstrued. NCSL is a strong supporter of the Federal Government's 
role in a national surface transportation system. A system that 
facilitates interstate commerce, addresses fairly and equally the 
mobility needs of all Americans and meets our national defense needs. I 
would also stress that NCSL supports the continuation and preservation 
of a federal-aid surface transportation program that directs spending 
to national priorities while providing flexibility for states to 
address regional variations. The Federal program should provide states 
maximum flexibility in deciding how to generate and leverage 
transportation revenues and how to use state and Federal dollars. The 
ability of states to maintain flexibility in decision making and comply 
with environmental and other mandates depends on regulatory flexibility 
as well as adequate and reliable Federal funding.
    This hearing represents an important and needed step towards a 
long-term reauthorization. It is an opportunity to recognize and review 
MAP-21's successes as well as those policy areas in need of an update, 
so that all parties, including state legislatures, can work together to 
ensure a safe and reliable surface transportation system throughout the 
country.
Freight and Interstate Commerce
    One critical responsibility of the Federal Government, within the 
arc of surface transportation investments, is to ensure the safe and 
timely movement of goods across the Nation. Robust state-federal 
consultation can help to evaluate freight flows and collaboratively 
plan the routes and development necessary to maintain and expand the 
highway freight corridors. As such, NCSL believes that Congress should 
look to engage and invest with states to ensure effective and efficient 
movement of freight.
    In fact, in my state of Utah, our Department of Transportation 
Director Carlos Braceras stated that, ``Nearly a quarter of the traffic 
on Utah's interstate system is commercial freight vehicles.'' These 
vehicles carry goods from out-of-state producers to and through Utah. 
Just as out-of-state businesses depend on a reliable, effective, well-
maintained, and safe transportation system in Utah, the businesses 
located in Utah also rely on effective transportation infrastructure in 
the national system.
National Highway and Transportation Safety Administration (NHTSA)
    MAP-21 consolidated various grant programs from SAFETEA-LU, 
including impaired driving and motorcycle grants, along with the new 
graduated driver and distracted driving grants, into the new Section 
405 National Priority Safety program. There are concerns that the 
qualifications for these new grants are so high it is proving difficult 
for states to participate.
    In particular, although 18 states have ignition interlock laws for 
all offenders, only four states have qualified for the Federal grant 
program because of issues surrounding rare exemptions for medical and 
work issues. Additionally, of the nearly 40 states that applied only 
one qualified for the distracted driving grant program due to the 
overly rigorous definitions and criteria being imposed on states. While 
every state has implemented some form of a three-stage graduated 
licensing system, no state qualified for this grant program in either 
FY 2013 or FY 2014.<SUP>i</SUP> The three-stage graduated licensing 
system has been credited as a primary driver of the significant 
reduction seen in teen driving deaths.
---------------------------------------------------------------------------
    \i\ Governors Highway Safety Association. Surface Transportation 
Reauthorization--Behavioral Highway Safety Provisions. 2015
---------------------------------------------------------------------------
    While NCSL supports the expansion of Federal safety programs to 
incorporate emerging safety issues, those efforts must respect state 
sovereignty and recognize the unique transportation demands of each 
state. NCSL opposes the use of Federal sanctions or redirection 
penalties to enforce those standards.
Performance Management
    One of the largest transformations within MAP-21 was the 
introduction of a national performance program so as to ensure that 
investments are correctly targeted as well as increase the 
accountability and transparency of these investments. The U.S. 
Department of Transportation (USDOT) continues its process of 
implementing these national level performance measures required in MAP-
21. It is important that these efforts recognize and build off of the 
extensive work states have done with regard to performance management. 
As many states, including Utah, already make use of certain performance 
measures on a regular basis, we urge the department and Congress to 
avoid creating additional reporting mandates or implementing lowest-
common denominator performance measures that run counter to good asset 
management practices.
    As an example, Utah's Transportation Commission has established a 
Funds Exchange Program that allows local governments to exchange their 
Federal transportation funds for state transportation funds on certain 
types of projects at a rate of $0.85 state funds per $1.00 Federal 
funds. Local governments jump at the opportunity to buy the flexibility 
provided to them in this transaction.
    In Utah, as with all of our sister states, the success of our 
communities--both large and small--is critical. As such, we have 
developed what we refer to as a Unified Plan, in which all of our 
Metropolitan Planning Organizations (MPOs), cities, counties, and 
transit authorities have come together to develop a unified plan of 
projects that will address the goals of the state and individual 
communities for the next 30 years. We speak with one voice toward an 
agreed-upon set of goals.
    These examples highlight why the Federal Government should build 
upon the work states have done as well as demonstrate why it would be a 
mistake for the Federal Government to mandate the use of Federal 
performance measures for making important investment decisions when 
other, more complete measures would provide more accurate information.
Project Streamlining
    The Federal Government has a role to play in ensuring that national 
environmental policy aligns with national transportation policy, while 
assuring efficient and cost-effective approaches to both goals. The 
findings of an August 2011 Congressional Research Service (CRS) report 
noted that major highway projects can take 10 to 15 years to plan and 
build.<SUP>ii</SUP> NCSL favorably views efforts included in MAP-21 to 
streamline regulatory review processes so that construction projects 
can again be realized on-time and on-budget. NCSL encourages Congress 
to allow and enhance states' programmatic permitting as well as provide 
incentives to states to achieve environmental quality standards through 
transportation projects.
---------------------------------------------------------------------------
    \ii\ Congressional Research Service. ``Accelerating Highway and 
Transit Project Delivery: Issues and Options for Congress.'' August 3, 
2011. Accessed from: http:bit.ly/CRS080311
---------------------------------------------------------------------------
    In Utah, we have assumed assignment of Categorical Exclusion 
documents since 2008 with great success, and we are currently in the 
process of securing full National Environmental Policy Act (NEPA) 
delegation. Earlier this year, the Utah legislature approved a bill 
authorizing Utah Department of Transportation (UDOT) to fully assume 
Federal responsibilities for NEPA. UDOT believes that we will secure 
full NEPA assignment by the end of the year.
Transportation Infrastructure Finance and Innovation Act (TIFIA)
    One program in particular from MAP-21 that I would like to discuss 
is the Transportation Infrastructure Financing and Innovation Act 
(TIFIA). As reported by the Government Accountability Office (GAO), 
demand for the program has been very high, with requests exceeding 
budgetary resources by a ratio of 10 to 1 since 2008.<SUP>iii</SUP> 
With MAP-21 authorizing an expansion of TIFIA to $1.75 billion over two 
years, from only $122 million in FY 2012, states will be able to 
finance and complete major projects of national and regional 
significance. NCSL supports this kind of expansion of credit-based and 
loan guarantee programs to incentivize private sector investment.
---------------------------------------------------------------------------
    \iii\ Government Accountability Office. ``Financing Program Could 
Benefit from Increased Performance Focus and Better Communication.'' 
June 21, 2012. Accessed from: http://www.gao.gov/products/GAO-12-641
---------------------------------------------------------------------------
Beyond MAP-21
    Finally, I'd like to quickly touch on the 800 pound gorilla--how to 
pay for these necessary investments? The Highway Trust Fund is 
estimated to become insolvent in a matter of months, while state gas 
taxes continue to show diminishing returns. The American Society of 
Civil Engineers has estimated America's surface transportation 
infrastructure faces a funding gap of about $94 billion a year based on 
current spending levels.<SUP>iv</SUP> NCSL believes the next long-term 
reauthorization should provide for a more sustainable funding mechanism 
for surface transportation that maintains a Federal trust fund financed 
by user fees. We urge Congress to support state-level pilot programs to 
explore transportation funding alternatives to fuel taxes. Attached to 
my testimony is NCSL's Solving America's Long-term Transportation 
Funding Crisis Policy Resolution, which details our stance on 
Congressional support for state pilot programs.
---------------------------------------------------------------------------
    \iv\ American Society of Civil Engineers. ``2013 Report Card for 
America's Infrastructure.'' May 2013. http://
www.infrastructurereportcard.org/
---------------------------------------------------------------------------
    In Utah, I recently helped lead efforts to pass House Bill 362, 
which made significant changes to the state's motor fuel tax structure 
and rate. The decision was not an easy one, nor was it taken lightly. 
In our very conservative state, raising taxes is not a regular 
occurrence. However, Utah legislators and Governor Herbert took the 
long view. Our motor fuel taxes had been the same per gallon amount 
(24.5 cents) since 1997 and had lost 49 percent of its buying power to 
inflation. Looking into the future, we realized we were facing a 
structural deficit in transportation. We had a static rate applied to a 
static base, which would not support our necessary long-term 
expenditures. Given the requirements of increased fuel efficiency, the 
growth in hybrid, electric and other alternative fuel vehicles and a 
static funding system that fails to adapt to demand, we needed a new 
approach. We recognized that continued economic expansion requires 
continued infrastructure investment.
    In particular, we set a minimum base cost per gallon at the rack 
for purposes of calculating the tax. We then applied a 12 percent rate 
to that per gallon minimum. That results in a 5 cents per gallon 
increase-to 29.5 cents-at the pump. Once actual wholesale prices reach 
that minimum, the minimum will increase over time by the consumer price 
index, up to a maximum of $3.33 per gallon. This index will allow our 
per gallon tax to match inflation up to a ceiling of 40 cents per 
gallon--a 15.5 cent per gallon maximum increase.
    We expect the changes in House Bill 362 will generate $25 million 
more in revenue for part of Fiscal Year 2016 and $75 million more in 
its first full year of implementation.
    Although the major funding portion of the bill was similar to a 
sales tax, we also included provisions directing UDOT to study a road 
usage fee similar to a pilot program that Oregon is set to undertake in 
a few months. Additionally, multiple states have approved legislation 
aimed at attracting private sector support.
    Madam Chairman, I thank you for this opportunity to testify before 
the Subcommittee. The importance of a long-term surface transportation 
reauthorization cannot be understated. Along with states, the Federal 
Government plays a vital role in supporting our national surface 
transportation system. As state legislators have responsibility for 
state budgets, policy planning and oversight activities we stand ready 
to work with Congress as it continues to develop a long-term successor 
to MAP-21. I look forward to questions from members of the 
Subcommittee.
Appendices
    NCSL Surface Transportation Federalism Policy Directive

    NCSL Solving America's Long-Term Transportation Funding Crisis 
Policy Resolution
                                 ______
                                 
National Conference of State Legislatures
The Forum for America's Ideas

           Solving America's Long-Term Transportation Crisis

      NCSL Natural Resources and Infrastructure Standing Committee

    Revenues for our transportation system continue to decline with 
vehicles becoming ever more fuel efficient and changing travel patterns 
nationwide. The Highway Trust Fund is estimated to become insolvent in 
2015 while state gas taxes continue to show diminishing returns. The 
American Society of Civil Engineers has estimated America's surface 
transportation infrastructure faces a funding gap of about $94 billion 
a year based on current spending levels.
    To respond to this well-documented funding crisis currently 
impacting America's surface transportation system, the National 
Conference of State Legislatures urges Congress to support the creation 
of a $20 million program, with no more than $2 million available for 
allocation to any one state, to support state-level pilot programs to 
explore transportation funding alternatives to fuel taxes.
                                 ______
                                 
National Conference of State Legislatures
The Forum for America's Ideas

           Surface Transportation Federalism Policy Directive

      NCSL Natural Resources and Infrastructure Standing Committee

    The National Conference of State Legislatures (NCSL) calls on 
Congress to work closely with states to develop a shared, long-term 
vision for financing and funding surface transportation systems that 
will enhance the Nation's prosperity and the quality of life of all 
Americans.
    The Federal Government plays a vital role in supporting a national 
surface transportation system that meets national defense needs, 
addresses fairly and equally the mobility needs of all Americans and 
facilitates interstate commerce. NCSL supports the continuation and 
preservation of a federal-aid surface transportation program. The 
Federal program should direct spending to national priorities while 
allowing for state and insular area flexibility in local and regional 
variations. It is also essential that the federal-aid surface 
transportation program incorporate requirements and foster goals of 
other national policies that impact transportation decision-making.
    Recent Federal reauthorizations have recognized the unique 
contributions of each transportation mode to the productivity of the 
states and the nation, and to the ability of this Nation to compete 
globally in the emerging and existing international economies. These 
laws contemplate an integrated transportation system for the movement 
of both goods and people, with increased emphasis on adopting 
technologies that improve productivity. NCSL urges Congress to provide 
states enhanced programming flexibility to meet a multitude of national 
goals. States should have maximum flexibility in deciding how to 
generate and leverage transportation revenues and how to use state and 
Federal dollars. The ability of states to maintain flexibility in 
decision making and comply with environmental and other mandates is 
dependent upon regulatory flexibility as well as adequate and reliable 
funding.
National Vision
    The surface transportation system in the United States needs a new 
vision to guide it beyond the Interstate Highway era into the 21st 
century and the needs and challenges that lie ahead. Congress should 
look at surface transportation anew, authorizing a new program that 
better meets current and future needs for interstate mobility.
    Congress must clearly articulate this new national vision for 
surface transportation. In doing so, Congress should consider the 
following as Federal objectives:

  <bullet> Interstate commerce and freight mobility,

  <bullet> Interstate movement of people,

  <bullet> National defense and homeland security,

  <bullet> Safety,

  <bullet> Environmental and air quality preservation and improvements,

  <bullet> Research and innovation, and

  <bullet> Economic productivity.

    Congress should focus Federal programs and funds on these 
interstate goals. In doing so, Congress should heed the Tenth Amendment 
and not intervene in or interfere with state-specific transportation 
priorities.
Funding and Financing
    A Federal trust fund, financed by user fees, should be retained as 
the primary method of funding federal-aid surface transportation 
programs. It must provide states a sustained, reliable source of 
transportation funding. It is critical that the Highway Trust Fund 
(HTF) retain spending firewalls that ensure that user fees will be 
deposited in the HTF to be used on surface transportation and will not 
be subject to non-transportation Federal discretionary spending. NCSL 
supports states having maximum flexibility in the use of funds they 
receive from the HTF. Additional surface transportation financing and 
investment priorities include the following.

  <bullet> User fees previously collected and diverted from the HTF 
        must be reclaimed.

  <bullet> Transit agencies, including commuter rail operations, should 
        be exempt from Federal fuel or energy taxes.

  <bullet> Unobligated revenues should not be allowed to accumulate in 
        the HTF. Moreover, Federal highway spending should not be 
        artificially reduced so that HTF revenues will accumulate 
        unspent, thereby appearing to lower the Federal deficit.

  <bullet> Annual appropriations should equal authorized spending 
        levels. Obligation ceilings should be set and maintained to 
        reflect gross receipts, plus interest earned.

  <bullet> Any Federal user fee or container fee assessed for 
        transportation security or infrastructure should provide for 
        state flexibility in project selection and may include private 
        sector input when programming projects funded by a security or 
        infrastructure user fee or container fee.

  <bullet> User fees designated for deposit in the HTF should be made 
        available for flexible transportation usage by states. States 
        should have flexibility in the use of funds for intercity 
        passenger rail service, including Amtrak. The Federal match 
        should encourage state efforts in specific programs of national 
        significance, but not discourage flexibility in state or 
        insular area transference of categorical funds. Despite 
        separate Federal authorizing legislation for Amtrak, Congress 
        must ensure that surface transportation authorizing legislation 
        acknowledges and fully supports the role of passenger rail for 
        ensuring interstate mobility. States that invest in or 
        otherwise support passenger rail services to complement highway 
        mobility options should be rewarded and encouraged.

  <bullet> Any examination undertaken on the advisability and 
        feasibility of establishing a Federal capital budgeting program 
        should preserve the ability of states to set surface 
        transportation infrastructure priorities.

  <bullet> Federal formulas designed to distribute discretionary 
        highway funds should consider all state, insular area, and 
        local efforts to fund highways and not be limited to fuel taxes 
        raised.

  <bullet> An increase in Federal highway transportation funding is 
        needed in the short-term to provide sufficient funding for the 
        next authorization to meet the new vision and until a new, more 
        stable long-term funding mechanism for surface transportation 
        can be put in place. Any fees or taxes imposed on carbon-based 
        fuels used by vehicles should be recognized as a traditional 
        source for transportation funding and should remain dedicated 
        to the Highway Trust Fund. Congress must migrate the Highway 
        Trust Fund from a gas tax to a new national funding stream. In 
        order to accomplish this, Congress must examine innovative ways 
        that capture all system users. Congress should encourage pilot 
        programs in states for experimentation with approaches, methods 
        and mechanisms. Any system should ensure the privacy of users.

  <bullet> Apart from the existing Highway Trust Fund flows for 
        transit, NCSL discourages expansion of federal-local funding 
        streams without appropriate coordination with state 
        legislatures as these complicate state-local relationships, 
        financial arrangements, and state match expectations for 
        transportation programs.

  <bullet> Congress should continue to encourage and expand incentive-
        based programs, such as the Urban Partnerships program, to spur 
        local and regional transportation innovation in full 
        coordination with state authorities and to promote the use of 
        tolling, congestion pricing, public transit, telecommuting, 
        real-time traffic and other advanced technologies (also known 
        as intelligent transportation systems), and other strategies in 
        a comprehensive approach to achieve interstate mobility goals 
        through urban congestion reduction.

  <bullet> All funding and financing options must be available to state 
        legislatures for state and federal-aid programs. All current 
        Federal restrictions on states' authority to toll should be 
        removed so that states can optimize resources for capacity 
        expansion, operations and maintenance while ensuring free flow 
        of goods and people. Tolling, value-pricing and public-private 
        partnerships (PPPs) should remain state provinces and are not 
        appropriate Federal funding and financing mechanisms.

  <bullet> Federal guidelines should be designed to accommodate private 
        sector support. The level of private sector participation is 
        best determined by state and local authorities, and private 
        participation should not be a prerequisite for receiving 
        Federal funds. Statutory or regulatory barriers to state and 
        locally-granted revenues should be removed. States should 
        continue to have flexibility in creating legislative and 
        programmatic frameworks for public-private partnerships (PPPs), 
        and full authority to select and engage in PPP projects.

  <bullet> Congress should not mandate or prescribe state use of toll 
        revenues or tolling mechanisms, though Congress may seek to 
        incentivize states to avoid redirection of toll revenues to 
        non-transportation uses.

  <bullet> Congress should continue Transportation Infrastructure 
        Finance and Innovation Act (TIFIA), Grant Anticipation Revenue 
        Vehicles (GARVEE), private activity bond, and State 
        Infrastructure Bank (SIB) programs. Congress should expand 
        credit-based and loan guarantee programs to incentivize private 
        sector investment--particularly for freight mobility by rail, 
        highway and waterway--in projects sponsored by the public 
        sector.

  <bullet> Congressional earmarks on transportation spending or for 
        transportation projects should represent additional funding, 
        should be distributed from non-formula funds, and should not 
        redirect base funding. Earmarks should fit within a national 
        objective as defined in the surface transportation program's 
        new vision and must appear in a state DOT's plan.
Technology
    NCSL endorses the U.S. Department of Transportation's goal of 
deploying advanced technologies known as intelligent transportation 
systems for consumers of passenger and freight transportation across 
the Nation. Intelligent Transportation Systems are advanced wireless 
technologies that maximize the safety, mobility and environmental 
performance of the surface transportation system. These services should 
be integrated, interoperable, intermodal and voluntary.
    NCSL recognizes that the private sector and the Federal Government 
should lead in the development and bringing to market of reliable and 
affordable ITS. The Federal Government should also set national 
standards for original equipment manufacturers to install the necessary 
technology so that states can take full advantage of the efficiencies 
and safety benefits of intelligent transportation systems. Congress 
should require the Secretary of Transportation to initiate a rulemaking 
proceeding that new motor vehicles be equipped with platforms for 
interoperable systems that enable vehicle-to-vehicle and vehicle-to-
roadside communications for the purposes of active safety and 
electronic tolling and tax collection and to provide a means of 
accelerating the deployment of this equipment in existing vehicles.
    Congress should incentivize states to explore and deploy technology 
for intelligent infrastructure, making it a high priority and 
performance measurement benchmark in the restructured Federal surface 
transportation program. Privacy protections must be developed and 
incorporated into all policies and practices governing use of 
intelligent transportation systems and technologies. ITS should not be 
mandated except for legitimate governmental purposes. Any information 
collected with such technology should be governed by state laws.
    The Federal Government should encourage states to cooperate with 
the private sector in the development of real-time traffic information 
systems.
Planning
    Congress must work with state legislators to establish in the next 
authorization a robust and cooperative state-federal system to set 
system plans and priorities for Federal investment. Transportation 
program plans developed by entities other than those created by the 
states must be coordinated with state legislatures to ensure that 
proposals fit into state programmatic and funding plans.
    The Federal Government is uniquely situated to identify and collect 
data of importance to the development of, maintenance of, and planning 
for a national transportation system. Congress should incentivize 
states to share data with the Federal Government and not use mandates 
to elicit participation in data collection and analysis.
    NCSL supports a negotiated rule-making led by U.S. Department of 
Transportation, or another collaborative process congressionally 
mandated and facilitated by the Transportation Research Board or 
American Association of State Highway and Transportation Officials 
(AASHTO), in which NCSL and state legislatures are fully represented to 
determine the necessary level of and standards for uniformity among 
states in data collection efforts.
Performance Measures
    NCSL encourages the Federal Government to establish a cooperative 
process through which performance measures can be crafted for gauging 
the success of programs. Federal funding should not be directly linked 
to performance measures; instead, a pilot program should be established 
in which states can voluntarily participate to gain incentives such as 
additional funding or reduced regulatory burdens upon successful 
deployment and use of performance measures. Performance measures should 
be framed as goals for which states may determine the specific measures 
and benchmarks.
    Federal monitoring and compliance standards should accurately 
reflect compliance effort and unique state circumstances.
Freight and Interstate Commerce
    Ensuring the safe and timely movement of goods across the Nation is 
an appropriate Federal transportation priority. Robust state-federal 
consultation should evaluate freight flows and collaboratively plan the 
routes and development necessary to maintain and expand the highway 
freight corridors.
    Rail capacity expansion should be coordinated with the states to 
ensure intermodal cooperation and maximum public benefit.
    The Federal Government should incentivize states to explore methods 
of separating highway freight traffic from passenger traffic for the 
purposes of efficiently moving interstate commerce and public safety.
    Federal engagement with, and investment through, the states to 
ensure effective and efficient movement of freight through ports or 
other commerce choke-points is appropriate.
Environmental Issues
    The Federal Government has a role to play in ensuring that national 
environmental policy meshes with national transportation policy while 
assuring efficient and cost-effective approaches to both goals.

  <bullet> Efforts to streamline regulatory review processes must 
        continue so that construction projects can again be realized 
        on-time and on-budget. Congress should allow and enhance 
        states' programmatic permitting.

  <bullet> Incentives to states to achieve environmental quality 
        standards through transportation projects should replace 
        prescriptive Federal regulation and punitive funding actions.
Safety
    NCSL supports a continued Federal role in helping to set national 
performance and safety goals. Safety programs should be expanded to 
incorporate emerging safety issues while respecting state sovereignty.
    Federal transportation safety programs should promote comprehensive 
safety programs in the states. NCSL opposes the use of Federal 
sanctions or redirection penalties to enforce Federal safety standards. 
Federal mandates that are enforced through the use of ``reprogramming'' 
sanctions should be repealed. Any existing Federal compliance standards 
should reflect overall state effort to promote safety.
Research and Innovation
    NCSL acknowledges that Federal leadership and investment in 
transportation related research and innovation is needed and 
appropriate. In particular, NCSL supports Federal research that 
promotes fuel efficiency, alternative fuels, high-mileage vehicles, 
safety and technology. Findings and best practices identified through 
Federal research should be shared fully with states in an unbiased, 
nonpartisan and scientific manner.
Indian Programs
    Transportation is an important service program that provides the 
infrastructure upon which American Indian tribes' initiatives can be 
achieved. NCSL recognizes the unique and extensive transportation 
funding needs on Indian lands. In an effort to ensure that these needs 
are adequately addressed, NCSL supports a direct planning relationship 
between Indian Nations and state departments of transportation. NCSL 
further supports the continuation of the Federal Lands Program and its 
work with Indian reservations.

    Senator Fischer. Thank you, Senator Bramble.
    Next, we have Mr. Nick Yaksich, Vice President, Government 
and Industry Relations, the Association of Equipment 
Manufacturers.
    Welcome.

   STATEMENT OF NICK YAKSICH, VICE PRESIDENT, ASSOCIATION OF 
                    EQUIPMENT MANUFACTURERS

    Mr. Yaksich. Chairman Fischer, Ranking Member Booker, and 
members of the Subcommittee, thank you for the opportunity to 
appear today to offer some perspective on the importance to 
manufacturers of passing a long-term highway bill.
    My name is Nick Yaksich. I'm Vice President of Government 
Affairs for the Association of Equipment Manufacturers. We are 
based in Milwaukee, Wisconsin. We represent over 900 equipment 
manufacturers of heavy agriculture and construction equipment. 
Our membership includes almost every piece of equipment you 
would see on a farm or construction site.
    Manufacturers' need for safe and reliable transportation to 
conduct their business, to efficiently access supply chains, 
and move our products to market, face great uncertainty with 
the lack of a long-term commitment to fund our Nation's 
transportation system.
    Unfortunately, we've had to wrestle, in recent years, with 
effects of deteriorating transportation infrastructure across 
the United States. Congress' inability to effectively address 
the chronic shortfall facing the Highway Trust Fund is eroding 
manufacturers' bottom line, where the effect is overbearing 
throughout the economy.
    On behalf of manufacturers, I wanted to use this 
opportunity to urge you to break the cycle of patchwork fixes 
and meaningfully provide a long-term fix to the Highway Trust 
Fund. These short-term bills harm manufacturers in a number of 
ways.
    First, as I mentioned earlier in my remarks, poor 
infrastructure harms our access to supply chains and markets. 
Congested and pothole stricken roads slow the pace of commerce 
for manufacturers, which in turn drive up costs.
    Second, the continued cycle of short-term fixes has sapped 
the State departments of transportation of their ability to 
plan most major, long-term capital investment projects. States 
like Mississippi, Arkansas, Georgia, Tennessee, and Wyoming 
have pulled back on projects totaling almost $1 billion in 
combined value. It is hard to imagine that another short-term 
surface transportation extension would prompt any renewed 
confidence among the State DOTs.
    The cloud of uncertainty especially harms manufacturers in 
the construction equipment sector. State officials lack the 
financing or confidence to make major investments, which 
translates to uncertainty for our customers, who then are 
unwilling to make capital investments in an uncertain market. 
This means fewer jobs in your states.
    The uncertainty is also reflected in the increased growth 
in the rental market. Manufacturers distribute primarily 
through dealers and rental businesses. In recent years, we have 
seen a dramatic increase in rental equipment as customers limit 
their financial exposure and chase work in new markets where 
they don't have existing equipment to manage the work.
    Third and finally, the persistent underinvestment in 
surface transportation infrastructure is harming our 
agriculture community. America's farmers need safe and reliable 
roads along with improved railways and inland waterways to get 
their harvest to consumers.
    According to TRIP, The Road Information Program, almost one 
in five rural roads are rated in poor condition. And trucks, 
for instance, account for 92 percent of the ton miles for 
transportation of perishable agricultural goods.
    So today, I want to urge you to please break this cycle. 
This Congress has shown it is capable of bipartisan successes 
after breakthroughs related to the sustainable growth rate and 
trade policy. You have a golden opportunity this year to add a 
long-term sustainably funded bill to this list.
    A long-term bill would represent an affirmative way for 
this Congress to reverse the decaying of our national 
infrastructure. It is a pro-growth solution that would promote 
commerce and help lower costs. And it supports job creation, 
both within the manufacturing sector and beyond.
    I know that finding a financial solution to long-term 
infrastructure development is politically difficult. AEM 
believes that a user fee system requires the simplest and 
fairest way to ensure that those who use our roads pay for the 
maintenance and growth.
    In closing, on behalf of equipment manufacturers, I urge 
you to support a long-term solution to provide the necessary 
support to maintain and grow our Nation's infrastructure 
system. It is critical to both rural and urban America.
    Thank you for your time today. I look forward to your 
questions.
    [The prepared statement of Mr. Yaksich follows:]

  Prepared Statement of Nick Yaksich, Vice President, Government and 
     Industry Affairs, Association of Equipment Manufacturers (AEM)
    Chairman Fischer, Ranking Member Booker, and Members of the 
Subcommittee:

    Thank you for the opportunity to appear today before this 
distinguished subcommittee to offer some perspective on the importance 
of passing a long-term highway bill for manufacturers.
    My name is Nick Yaksich and I am Vice President, Government and 
Industry Affairs of the Association of Equipment Manufactures (AEM). 
Based in Milwaukee, Wisconsin, AEM represents nearly 900 construction 
and agriculture manufacturers of heavy equipment. Our membership 
includes almost every piece of equipment you would see on a farm or 
construction site.
    Manufacturers' need for safe and reliable transportation to conduct 
their businesses--to efficiently access supply chains and move our 
products to market--faces great uncertainty with a lack of long term 
commitment to fund our Nation's transportation system.
    Unfortunately, we've had to wrestle in recent years with the 
effects of deteriorating transportation infrastructure across the 
United States. Congress's inability to effectively address the chronic 
shortfall facing the Highway Trust Fund is eroding manufacturers' 
bottom line, and the effect is reverberating through the economy.
    The Highway Trust Fund is slated to run out of spending authority 
later this month, and we understand Congress is preparing to adopt 
another short-term measure to extend the Highway Trust Fund for just a 
few more months.
    On behalf of manufacturers, I want to use this opportunity to urge 
you to break the cycle of patchwork fixes and meaningfully provide a 
longer term fix to the Highway Trust Fund.
    These short-term bills harm manufacturers in a few key ways.
    First, as I mentioned earlier in my remarks, poor infrastructure 
harms our access to supply chains and markets. Congested and pothole-
stricken roads slow the pace of commerce for manufacturers, which, in 
turn, drives up costs.
    Second, the continued cycle of short-term fixes have sapped most 
state departments of transportation of their ability to plan most 
major, long-term capital investment projects. States like Mississippi, 
Arkansas, Georgia, Tennessee, and Wyoming have pulled back on projects 
totaling $1 billion in combined value. It's hard to imagine that 
another short-term surface transportation extension would prompt any 
renewed confidence among state DOTs.
    This cloud of uncertainty especially harms manufacturers in the 
construction equipment sector. State officials lack the financing or 
confidence to make major investments, which translates to uncertainty 
for our customers who then are unwilling to make capital investment in 
an uncertain market. That means fewer manufacturing jobs in each of 
your states.
    The uncertainty is also reflected in the increasing growth in the 
rental market. Manufacturers distribute primarily through dealers or 
rental businesses. In recent years, we have seen a dramatic increase in 
rental equipment as customers limit their financial exposure and chase 
work in new markets where they don't have existing equipment to manage 
the work.
    Third, and finally, our persistent underinvestment in surface 
transportation infrastructure is harming our agriculture economy. 
America's farmers need safe and reliable roads (along with improved 
railways and inland waterways) to get their harvests to consumers. 
According to TRIP, The Road Information Program, almost one in five 
rural roads are rated as being in ``poor'' condition. And trucks, for 
instance, account for 91 percent of ton-miles for transportation of 
perishable agricultural goods.
    So today, I want to urge you to please break this cycle.
    This Congress has shown it's capable of bipartisan successes after 
breakthroughs related to the Sustainable Growth Rate (SGR) and trade 
policy. You have a golden opportunity this year to add a long-term, 
sustainably funded highway bill to that list.
    A long-term highway bill would represent an affirmative step by 
this Congress to reverse the decaying of our national infrastructure. 
It's a pro-growth solution that would promote commerce and help lower 
costs. And it supports job creation, both within the manufacturing 
sector and beyond.
    I know that finding a solution to finance long-term infrastructure 
development is politically difficult. There are any number of proposals 
floating around Capitol Hill, ranging from repatriation to the gas tax 
to a ``supercommittee'' dedicated toward figuring out how to finance 
infrastructure in the future. But the bottom line is that the user fee 
system remains the simplest and fairest way to ensure that those who 
use our roads pay for their maintenance.
    In closing, on behalf of equipment manufacturers, I urge you to 
support long term solutions to provide the necessary support to 
maintain and grow our Nation's transportation system. It is critical to 
both urban and rural America.
    Thank you for your time today. I look forward to your questions.

    Senator Fischer. Thank you, Mr. Yaksich.
    Next we have Janet Kavinoky, the Vice President, Americans 
for Transportation Mobility with the United States Chamber of 
Commerce.
    Welcome.

       STATEMENT OF JANET KAVINOKY, EXECUTIVE DIRECTOR OF

        TRANSPORTATION AND INFRASTRUCTURE, U.S. CHAMBER

           OF COMMERCE; VICE PRESIDENT, AMERICANS FOR

               TRANSPORTATION MOBILITY COALITION

    Ms. Kavinoky. Thank you, and thank you for the opportunity 
to testify today. The Chamber's jobs growth and opportunity 
agenda prioritizes long-term investment and leadership in 
transportation, because a first-rate transportation system is 
necessary to maintain a first-rate economy in the United 
States.
    A system with adequate capacity and high quality of service 
is strongly correlated with GDP growth and increased foreign 
direct investment, which create jobs. Failure to address 
transportation problems undermines our economic growth.
    In February, Chamber member Ingredion testified that an 
outdated transportation system leads to increased freight 
costs, variability in deliveries, higher inventories, poor 
customer service, and an overall competitive disadvantage for 
all industries. Because of strained transportation capacity, 
Ingredion had to increase product inventories and struggle to 
meet its customer demand.
    But their story is just a pixel in the bigger picture. 
Increased transportation costs are impacting the broader 
American business community. The Council of Supply Chain 
Management Professionals' most recent state of logistics report 
revealed that U.S. business logistics costs totaled almost $1.4 
trillion in 2013, the equivalent of a little over 8 percent of 
current GDP.
    Business leaders recognize these threats to competitiveness 
and are voicing concern. Eighty-seven percent of executives 
told the Economist Intelligence Unit that aging infrastructure 
had an impact on their operations in recent years, and 10 
percent mentioned that it had caused severe problems in their 
operations that they were still continuing to address.
    Many steps have been taken to address these issues, but 
there is obviously more to be done. The Chamber is a member of 
the Freight Stakeholders Coalition, a longstanding group of the 
country's largest shippers and public and private 
transportation providers, and we support the principles 
outlined in the coalition's MAP-21 reauthorization platform.
    The principles call on Congress to provide dedicated 
funding for freight mobility and goods movement, promote and 
expedite project development and delivery, and foster 
operational and environmental efficiencies in goods movement, 
among other recommendations. The principles reflect the need to 
address major challenges to this country and its 
competitiveness.
    Other nations have ambitious and strategic infrastructure 
initiatives designed to project economic power, grow their 
economies, improve the quality-of-life for their citizens, and 
support the competitiveness of their businesses. In contrast, 
in the United States, we lurch from crisis to crisis, dealing 
in short-term extensions that prevent us from truly focusing on 
the ever-increasing demands on our infrastructure.
    And with increases in population and trade, both export and 
import volumes, possibly facilitated by the Export-Import Bank, 
TPA, and immigration, the transportation challenges keep 
growing.
    It is notable, then, that the Freight Stakeholders 
Coalition included as its first principle the imperative that 
Congress and the administration together must achieve real, 
long-term, sustainable funding solutions designed to meet our 
current and future infrastructure needs.
    Unfortunately, MAP-21 left the big question unanswered, and 
the issue of revenue for the Federal Highway Trust Fund has 
been a topic of nonstop debate, discussion, and handwringing 
since MAP-21 passed in 2012. It is time to stop talking and 
act.
    The Chamber supports revenue sources that are 
transportation-related; collected on an ongoing basis; 
structured to be sustainable and growing; adequate for full 
funding or, at a minimum, able to maintain funding levels; and 
collectible by the Federal Government. It is the Chamber's 
position that the simplest, most straightforward, elegant 
solution to the immediate problem we face is to increase user 
fees going into the Highway Trust Fund. Adding a penny a month 
for a year and indexing the total user fee to inflation could 
support current services funding levels for the foreseeable 
future.
    And yes, we know that there is a need to look to other 
revenue sources. The vehicle fleet is becoming more fuel-
efficient. Driving patterns are changing. Construction costs 
typically grow faster than the Consumer Price Index. And 
multimodal investment calls for more diversified sources of 
revenue. Likewise, the use of procurement approaches, like 
public-private partnerships to deliver more value, better 
allocate risk, and draw private capital, are needed.
    In conclusion, it should be evident that Federal investment 
in safe, reliable, efficient transportation systems is, quite 
simply, smart business. The Chamber looks forward to the day 
that Congress passes a long-term, fully funded bill that builds 
all the reforms contained in MAP-21 and identifies the 
resources needed to maintain and, ideally, increase smart 
spending on the Nation's transportation system.
    Thank you for this opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Ms. Kavinoky follows:]

      Prepared Statement of Janet Kavinoky, Executive Director of 
   Transportation and Infrastructure, U.S. Chamber of Commerce; Vice 
       President, Americans for Transportation Mobility Coalition
Introduction
    Chairman Fischer, Ranking Member Booker and distinguished members 
of the Senate Subcommittee on Surface Transportation and Merchant 
Marine Infrastructure, Safety and Security, thank you very much for the 
opportunity to discuss the importance of Federal investment and 
leadership in transportation infrastructure. I am Janet Kavinoky, 
Executive Director of Transportation and Infrastructure at the U.S. 
Chamber of Commerce (Chamber) and Vice President of the Chamber-led 
Americans for Transportation Mobility Coalition (ATM), which includes 
business, labor, highway and public transportation interests. We 
believe strongly that Federal investment in highways, public 
transportation, and safety for both freight and passengers is necessary 
to boost economic productivity, create and support jobs, successfully 
compete in the global economy, and maintain a high quality of life.
    The bipartisan highway, transit and safety law, Moving Ahead for 
Progress in the 21st Century (MAP-21), which ended years of short term 
extensions that created a great deal of uncertainty for businesses and 
infrastructure owners and operators, is once again about to expire. By 
May 31, Congress should pass a long-term, fully-funded bill that builds 
on the reforms contained in MAP-21 and includes the resources needed to 
maintain, and ideally increase, smart spending on the Nation's 
transportation system. The alternative is to begin the pattern of 
extensions and revenue patches all over again. That pattern leads to 
slowed or cancelled lettings, project delays, cost increases, and 
uncertainty that negatively affect business outlooks.
    Transportation infrastructure is one of the top priorities on the 
Chamber's Jobs, Growth, and Opportunity Agenda. Having a safe, 
reliable, efficient transportation system is, quite simply, smart 
business.
Transportation Infrastructure and the National Economy
    Infrastructure is not the end result of economic activity; rather 
it is the framework that makes economic activity possible.\1\
---------------------------------------------------------------------------
    \1\ Trimbath, Susanne. 2011. ``Transportation Infrastructure: 
Paving the Way,'' STP Advisory Services, LLC.
---------------------------------------------------------------------------
    In 2009, the Chamber undertook a study to explore the degree to 
which transportation system performance--the ability to meet the needs 
of business--related to the national economy. We created the 
Transportation Performance Index (TPI) by asking our members to 
identify what was important and why, translated those into indicators 
of performance, identified data sources, and combined the data into the 
TPI, which is statistically representative of the diverse economics, 
geography, and demographics of the United States.
    Here is what we found:

    A transportation system that works for businesses can propel 
economic growth and, conversely, one that falls short of performing as 
it needs to will drag down the economy.

    There is a strong correlation between performance, which the TPI 
defines as the degree to which the transportation system serves U.S. 
economic and multi-level business community objectives, and economic 
growth as measured by Gross Domestic Product (GDP). The TPI econometric 
analysis provided robust, stable results showing the overall 
contribution to economic growth from well-performing transportation 
infrastructure as fundamental to maintaining a strong economy.\2\
---------------------------------------------------------------------------
    \2\ Transportation Performance Index--Key Findings, U.S. Chamber of 
Commerce, (http://www.uschamber.com/sites/default/files/lra/files/
LRA_Transp_Index_Key_Findings.pdf), 2011.
---------------------------------------------------------------------------
    The analysis also exposed a strong correlation between 
transportation infrastructure performance and foreign direct investment 
(FDI) in the United States. There is a positive relationship between 
FDI that opens new establishments in the United States--creating new 
jobs--and the performance of transportation infrastructure as measured 
by the TPI.
    A first rate national transportation system is necessary in order 
to maintain a first rate economy in the United States. Failure to 
address transportation problems undermines U.S. economic growth. This 
is the fundamental reason that the Federal Government must take a 
leading role in making sure that transportation policies--and the 
related programs and spending that implement these policies--contribute 
to a strong economy, including enabling interstate commerce, 
facilitating international trade, and propelling the efficient mobility 
and connectivity of people and products.

    Business generally cares about three things when it comes to 
transportation infrastructure:

  <bullet> Supply: availability of infrastructure, which is a key 
        consideration for businesses when deciding where to locate 
        their facilities;

  <bullet> Quality of service: reliability of infrastructure, whether 
        it supports predictable and safe transportation services and 
        travel; and,

  <bullet> Utilization: whether current infrastructure can sustain 
        future growth. Utilization is a key consideration for companies 
        that look years into the future to inform the decisions and 
        capital investments they make today.

    Finding good data to indicate performance can be difficult.

    One of the main challenges in creating an index based on 
performance was finding data sources that were publicly available, 
collected consistently across the country, and reflective of more than 
just a few years. In general, congestion and intermodal connectivity 
for both people and goods were major concerns of our members, but 
indicators that look across modes--of particular importance for the 
reliability and velocity of freight movement--are limited. If the 
Chamber's experience is any indication, maintaining Federal research 
and data collection assistance across all modes of transportation will 
be critical to the success of performance-based transportation 
decision-making mandated by MAP-21.
Business Can Tell You a Short-Term Approach is a Bad Idea--Ingredion's 
        Story
    Chamber member Ingredion Incorporated is headquartered in Chicago 
with a global research and development center in Bridgewater, New 
Jersey. Ingredion products are found in 80 percent of all items on a 
grocery store shelf either in food, beverage or personal care products, 
or in the packaging. Ingredion's Vice President of Supply Chain and 
Customer Experience David Gardener testified to transportation 
infrastructure challenges and the need for a long-term bill earlier 
this year.

        Our supply chain is a worldwide network of 35 manufacturing 
        plants and 24 ingredient development centers. In North America 
        we operate 13 manufacturing plants, with seven in the United 
        States. The largest is located in the Chicago area and the 
        others are scattered across the country from California to the 
        Carolinas.

        Our primary raw material is corn, which is shipped to our 
        plants from the farm-belt states via rail and truck. Our 
        finished products are distributed to our customers across the 
        country by a network of rail, truck, warehouses, and break 
        stations.

        Needless to say, a smooth-functioning surface transportation 
        system is not only essential to Ingredion's business; it 
        impacts our bottom line and the bottom line of our customers. 
        Logistics costs represent a significant portion of our inbound 
        corn costs and delivered finished product costs. In 2014 alone, 
        our transportation costs excluding the cost of fuel increased 
        by 3.6 percent, significantly outpacing inflation.

        An outdated transportation system leads to increased freight 
        costs, variability in deliveries, higher inventories, poor 
        customer service, and an overall competitive disadvantage for 
        our and all industries. Here are a few examples to illustrate 
        how a neglected infrastructure impacts us.

        Last year, it took longer to transport corn from the farmers 
        and storage elevators to our plants. This resulted in millions 
        of dollars in increased freight costs, higher manufacturing 
        costs due to plant downtime, and curtailed production.

        The transportation industry is struggling. In 2014, the average 
        train speed decreased by over five percent and delay time 
        increased by 10 percent. As a result, we had to increase 
        product inventories and address a shortage of rail cars to 
        transport our products, leaving us to struggle to meet customer 
        demand. As the network moves slower, we are forced to increase 
        our rail fleet and to make suboptimal sourcing decisions.

        Chicago is a primary transportation hub and the location of our 
        largest plant. The increased rail volume through Chicago is 
        causing unprecedented delays. For example, it can take up to 
        three days just to exit the Chicago metropolitan area. 
        Customers that are a mere seven hour drive from our plant can 
        take up to five days to reach by rail. In some cases, we are 
        forced to shift production from our plant in suburban Chicago 
        to a Canadian facility just to avoid the delays around Chicago 
        and satisfy our customers.

        Because we cannot consistently rely on rail to deliver products 
        to our customers on time, we, as many others, often must revert 
        to trucks, costing significantly more than rail. However, the 
        trucking industry is also challenged. Available truck capacity 
        compared to truck demand is at an historic imbalance. This has 
        been amplified by tightening regulation on driver hours of 
        service and a deteriorating highway infrastructure.

        Our ability to respond to our customer's needs is directly 
        impacted by the availability of trucking capacity. As truck 
        capacity tightens, our on time delivery rate suffers. 
        Ingredion's incidence of late truck deliveries increased by 
        over two-fold in 2014. This not only creates inefficiency in 
        our supply chain, but also our customer's.

        However, our story is just a pixel in the bigger picture.

        Increased transportation costs are impacting the broader 
        American business community. According to the Council of Supply 
        Chain Management Professionals most recent State of Logistics 
        report, U.S. business logistics costs totaled almost $1.4 
        trillion in 2013, the equivalent of a little over eight percent 
        of current GDP.

        Business leaders recognize these threats to competitiveness and 
        are voicing concern. The Economist Intelligence Unit found that 
        87 percent of executives said that aging infrastructure had an 
        impact on their operations in recent years, with 10 percent 
        mentioning that it had caused severe problems in their 
        operations that they were continuing to address.\3\
---------------------------------------------------------------------------
    \3\ Testimony of David Gardner, Vice President of Supply Chain and 
Customer Experience, Ingredion Incorporated, to the Senate Committee on 
Environment and Public Works, February 25, 2015.

    Many steps have been taken by to address the issues raised by 
Ingredion, but there is obviously more to be done. Congestion, 
connectivity, and future capacity are important in rural and urban 
areas, and within and among modes.
Freight Stakeholders MAP-21 Reauthorization Principles
    Congress needs to act on a long-term bill because of the importance 
of transportation to the U.S. economy. It is a national priority.
    Other nations have ambitious and strategic infrastructure 
initiatives designed to project economic power, grow their economies 
and improve the quality of life for their citizens, and support the 
competitiveness of their businesses. Short-term extensions keep the 
United States from truly focusing on addressing the ever-increasing 
demands that are being placed on our infrastructure. And with increases 
in trade--both export and import volumes--and population the 
transportation challenges are growing while we in Washington lurch from 
crisis to crisis.
    To create a 21st century infrastructure to support a 21st century 
economy requires a partnership among all levels of government and the 
private sector, use of multiple modes of transportation as well as 
technology, and flexibility for those closest to the problem to tailor 
solutions to their particular needs.
    The Chamber is a member of the Freight Stakeholders Coalition, a 
longstanding group of the country's largest shippers and public and 
private transportation providers. We support the principles outlined in 
the Freight Stakeholders Coalition Surface Transportation 
Reauthorization Platform and wholeheartedly agree that, ``The Federal 
Government must lead long-term efforts designed to further America's 
competitive advantage by advancing projects of regional and national 
significance that reduce congestion, enhance goods movement, improve 
the environment and create jobs.'' \4\
---------------------------------------------------------------------------
    \4\ https://www.intermodal.org/assets/private/
2014freightstakeholderscoalitionplatform.pdf. Accessed May 3, 2015.
---------------------------------------------------------------------------
    The principles of this group can guide Congress and the 
Administration in addressing the challenges faced by Ingredion and 
thousands of businesses across the country.

  1.  Congress and the Administration, together, must achieve real, 
        long-term, sustainable funding solutions designed to meet our 
        current and future infrastructure needs.

    First and foremost, the public sector needs certainty in future 
Federal funding. Short-term approaches to funding infrastructure create 
uncertainty and discourage states from undertaking multi-year and 
complex transportation investments such as new bridge replacements, 
improved highway interchanges, transit upgrades, and additional 
capacity to relieve congestion that chokes our roads. The private 
sector also needs certainty; for example, funding certainty enables the 
public sector to partner effectively with freight railroads and address 
rail bottlenecks. The CREATE program in Chicago, the Crescent 
Corridor--a partnership between Norfolk Southern and 13 states, and the 
Alameda Corridor in California are prime examples of this kind of 
partnership.

  2.  Provide dedicated funds for freight mobility/goods movement, and

  3.  Continue and fund the Projects of National and Regional 
        Significance program.

    The Chamber's position on funding for freight dates back to 
SAFETEA-LU reauthorization:

        The Chamber supports creation of a national freight 
        transportation program for identifying and funding federal, 
        state, and metropolitan efforts to ensure adequate capacity, 
        reduce congestion and increase throughput at key highway, rail, 
        waterway and intermodal choke points.

    <bullet> The program should include a national freight 
            transportation plan built on performance measures and 
            should include a comprehensive survey of key freight 
            corridors and other assets.

    <bullet> A national freight transportation plan should incorporate 
            the development of new capacity, access routes to major 
            water ports and airports, access routes to border crossings 
            and international gateways, operational strategies to 
            improve utilization of existing assets, and strategic 
            intermodal investments to expedite freight movement.

    <bullet> The plan should guide government project selection and 
            prioritization.

    <bullet> The program should not dilute other Federal transportation 
            priorities.\5\
---------------------------------------------------------------------------
    \5\ https://www.uschamber.com/sites/default/files/legacy/lra/docs/
safetealureauthorization
policystatementboardapproved.pdf. Accessed May 3, 2015.

  4.  Promote and expedite the development and delivery of projects and 
        activities that improve and facilitate the efficient movement 
---------------------------------------------------------------------------
        of goods.

    The Hoover Dam was built in five years. The Empire State Building 
took one year and 45 days. The Pentagon, one of the world's largest 
office buildings, took less than a year and a half. The New Jersey 
Turnpike needed only four years from inception to completion. Fast 
forward to 2015, and the results are much different.
    MAP-21 made great strides in improving project delivery for highway 
and transit projects. However, rail projects did not benefit from those 
changes. The Chamber urges Congress to pass S. 280, the bipartisan 
Portman-McCaskill permit streamlining bill, which would help all 
infrastructure projects move forward in a timely but environmentally 
responsible manner. Among other things, S.280 would: (1) designate a 
lead agency that is responsible for managing and coordinating the 
review process among agencies, and (2) place time limits on decision 
making and legal challenges for infrastructure projects without 
changing the substantive requirements that protect the public.

  5.  Establish a multi-modal freight office within the Office of the 
        Secretary.

  6.  Support multi-state freight corridor planning organizations.

  7.  Reauthorize/reinstitute programs that have facilitated freight 
        mobility projects.

  8.  Expand freight planning at the state and local levels.

    Planning must address both passenger and freight needs and 
incorporate the challenges at border crossings, along trade corridors, 
and across jurisdictions. Goods movement in urban areas, typically the 
last mile of delivery, is a prime example of where those two customer 
groups can either conflict or peacefully coexist. One only needs to 
look at bottlenecks near our major ports to see that planning must 
consider both the needs of freight and people.

  9.  Foster operational and environmental efficiencies in goods 
        movement.

    On this latter point, there are two specific policy measures that 
the Chamber encourages the Committee to consider during MAP-21 
reauthorization. First, the Chamber encourages the Committee to provide 
permanent relief from the 34-hour restart provision in the Federal 
Motor Carrier Safety Administration's hours of service regulations for 
trucking. Second, although the Chamber is typically silent on trucking 
productivity issues, we do support changes to the law allowing less-
than-truckload carriers to increase their productivity without 
sacrificing safety if allowed to use two 33 foot container 
configurations instead of the twin-28 foot containers.
The High Cost of Inaction
    These principles reflect the need to address major challenges to 
this country and its competitiveness globally.
    Failure to act is--and will continue to be--costly. The American 
Association of Port Authorities Port Surface Transportation 
Infrastructure Survey representing the views of nearly all of the top 
U.S. seaports on the Atlantic, Pacific and Gulf coasts, and along the 
Great Lakes, was revealing. One-third of respondents said congestion on 
their port's intermodal connectors over the past 10 years has caused 
port productivity to decline by 25 percent or more. And nearly fourth-
fifths of AAPA U.S. ports surveyed said they anticipate a minimum $10 
million investment being needed in their port's intermodal connectors 
through 2025, while 30 percent anticipate at least $100 million will be 
needed.\6\ As Jonathan Gold, vice president of supply chain and customs 
policy at the National Retail Federation, said to the Wall Street 
Journal, ``We can't have U.S. ports acting as a barrier to trade,'' he 
says. ``We're shooting ourselves in the foot.'' \7\
---------------------------------------------------------------------------
    \6\1A``The State of Freight.'' American Association of Port 
Authorities. April 21, 2015.
    \7\ Wall Street Journal. ``U.S. Ports See Costly Delays as Cargo 
Ships, Volumes Grow.'' April 29, 2015
---------------------------------------------------------------------------
    A recent Wall Street Journal article brought the problem down to 
the company level.

        Audax transportation hauls goods ranging from car engines for 
        Ford Motor Co. to frozen chicken parts for Perdue Farms. 
        Bottlenecks at the Port of Virginia have reduced the amount of 
        goods its truck drivers can move in a day by 50 percent in the 
        past year, says Ed O'Callaghan, the firm's president and an 
        agent of trucking company Century Express in Norfolk, Va. To 
        make up for lost revenue, his company has raised prices for 
        customers by about 35 percent.\8\
---------------------------------------------------------------------------
    \8\ Ibid.

    And Thomas Riordan, representing the National Association of 
Manufacturers at a hearing earlier this year emphasized the importance 
of action on MAP-21 reauthorization from a global competitiveness 
---------------------------------------------------------------------------
perspective.

        The manufacturing impacts of the West Coast dispute mounted 
        daily, and the uncertainty over the past several months led to 
        some cancelled orders from overseas customers, increased costs 
        and even lost jobs in some circumstances. Worst of all, this 
        situation tarnished the reputation of the United States as a 
        global supplier.

        The West Coast ports situation showed the fragility and 
        complexity of our transportation network and what happens when 
        an export cannot move to a customer or a manufacturing input is 
        not received in time for a production line.\9\
---------------------------------------------------------------------------
    \9\ Testimony of Thomas Riordan, President and CEO, Neenah Foundry, 
to the Senate Committee on Environment and Public Works, February 25, 
2015.
---------------------------------------------------------------------------
The Issue of Funding
    Moving Ahead for Progress in the 21st Century addressed many of the 
policy concerns that the Chamber had with Federal surface 
transportation programs. Our members asked for transportation policies 
that cut through red tape at all levels of government so that projects 
move forward quickly. MAP-21 delivered, and as the law continues to be 
implemented we are eager to assess the results. Businesses wanted to 
see Federal funds leveraged for locally selected projects that 
addressed the transportation needs of companies large and small. MAP-21 
was an excellent step toward ensuring that the ``how to'' decisions are 
made at the state and local levels of government through simplification 
and reorganization of the Federal program structure but maintaining 
oversight and requiring transparency and accountability through 
performance measurement. Performance measurement systems should allow 
us to determine how well state and local decisions are prioritizing and 
delivering on the national interest.
    Unfortunately, MAP-21 left the Big Question unanswered: where will 
the Federal Government find the revenue needed to fully pay for a long-
term highway and transit bill that truly improves the condition and 
performance of the Nation's transportation system. The Chamber is 
pleased that Congress has rejected, repeatedly, efforts to make drastic 
cuts in Federal investment on roads and bridges, public transportation, 
and highway safety.
    However, as everyone is painfully aware, the issue of sustainable, 
growing revenue for the Federal Highway Trust Fund (HTF) is central to 
MAP-21 reauthorization. It has been a topic of nonstop debate, 
discussion, and hand wringing since MAP-21 passed in 2012.
    It is time to stop talking and act.
    The stakes are high. Approximately half of all capital investment 
in roads and public transportation across the country comes from the 
Federal Government.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    U.S. Chamber and American Public Transportation Association 
analysis of Federal Transit Administration data for Federal Fiscal Year 
2012.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Congress must to identify revenue sources to fill the gaping hole 
between revenues and current spending levels. Ideally, should seek to 
fill the growing hole between available resources and needs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chamber evaluates revenue sources along five criteria. A 
``five-star revenue source'' will have a yes answer to each of the 
following questions:

  <bullet> Is the revenue source transportation-related? In simple 
        terms, because of special Federal rules, if revenues are 
        transportation-related, Congress can pass a long-term bill that 
        provides funding certainty. Without transportation-related 
        revenues, annual appropriations could vary dramatically. 
        Uncertainty means transportation projects cost more and have 
        less impact because big, high-impact projects rely on multi-
        year transportation funding certainty.

  <bullet> Are the revenues ongoing, rather than one-time? One-time 
        money is a Band-Aid, rather than a solution. This is the path 
        Congress has taken to `solve' the problem since 2009. It 
        involves funneling money from one place to another, and does 
        not address the HTF's structural problems in the long term.

  <bullet> Are the revenues sources structured to be sustainable and 
        growing? We need to not only meet today's demands on our 
        national transportation network, but also the increasing 
        demands we know will be placed upon that network in the coming 
        years.

  <bullet> Are the revenue sources--alone or in combination--adequate 
        for full funding or, at a minimum, able to maintain funding 
        levels? In combination or by themselves we need $91 billion 
        over the next six years just to maintain funding levels. And 
        that won't necessarily deal with the backlog of maintenance and 
        construction needed to improve the condition and performance of 
        transportation systems, anticipate demographic changes, and 
        accommodate and spur economic growth. We should aim for full 
        funding, meaning what's needed to bring our seriously outdated 
        network of highways, bridges and transit systems up to par, and 
        keep it that way, so future generations can rely upon the 
        network.

  <bullet> Can the Federal Government collect the revenues? There are 
        some options, like sales taxes and value capture, which are 
        viable at a state or local level but that the Federal 
        Government cannot use. It seems basic, but this knocks out a 
        lot of potential ideas that work well at other levels of 
        government.

    It is the Chamber's position that the simplest, most 
straightforward, elegant solution to the immediate problem we face is 
to increase user fees--gasoline and diesel taxes--going into the HTF. 
Adding a penny a month for a year and indexing the total user fee to 
inflation could support current services funding levels for the 
foreseeable future. The collection system itself is highly efficient: 
the owner of the fuel at the time it breaks bulk from the terminal rack 
pays the excise tax to the Internal Revenue Service. According to the 
American Petroleum Institute, there are about 1300 terminals in the 
country, translating to a low number of payers and low cost of 
administration. The gas tax, if adjusted in amount and indexed, 
receives five stars as a revenue source.
    And yes, in the long run, we know that there is a need to look to 
other revenue sources. The vehicle fleet is becoming more fuel-
efficient. Driving patterns are changing. Construction costs typically 
grow faster than the Consumer Price Index. And multi-modal 
transportation investment calls for more diversified sources of 
revenue.
    Finally, I should mention that the Federal Government has many 
other tools at its disposal to encourage investment in both freight and 
passenger transportation, including promoting public-private 
partnerships (P3s). Those mechanisms include using the Transportation 
Infrastructure Financing and Innovation Act (TIFIA) program, private 
activity bonds--which need the cap lifted for transportation projects, 
and technical assistance to project sponsors. The Chamber is a big 
supporter of P3s. A recent article in Governing Magazine summarized the 
benefits, which are not about creating money where there is none but 
rather in creating significant public value through the ``responsible 
fusion of public-private resources.'' Projects delivered using P3s have 
a record of coming in ahead of schedule and under budget. The private 
sector taking on risk shelters the public sector from losses. New 
technologies and other innovations are brought to bear. Public-private 
partnerships are not for every project, but there is a growing track 
record of success in the United States and we should continue to 
encourage P3s.
Conclusion
    The Chamber strongly supports Federal investment in transportation. 
We need a smooth flowing, efficient national transportation network 
that will support the transportation needs of businesses from origin to 
destination across the globe, and from the factory to the corporate 
headquarters to main street retailers to medical centers.
    Congress should pass a fully funded, long-term MAP-21 
reauthorization bill by May 31, although it is unlikely it will do so. 
Kicking the can again has costs. Companies cannot plan for hiring or 
capital expenditures. Land, labor, and capital are more expensive as 
the time value of money increases project costs. Projects that need 
multi-year funding commitments are delayed. Opportunities for economic 
development and economic growth are lost.
    Thank you for the opportunity to testify today and the Chamber 
looks forward to working with you to build on the reform success of 
MAP-21, stabilize the HTF and find ways to grow investment in highways, 
transit, and highway safety so each state and region can get out of the 
system what they need to be successful--whether that is moving freight 
or their employees.

    Senator Fischer. Thank you.
    I would like to recognize Senator Booker.
    Senator Booker. I wanted to have the opportunity to 
introduce the next witness, who is one of New Jersey's great, 
outstanding mayors, a truly dedicated public servant who has 
been the Mayor of Piscataway for about 15 years.
    It is my pleasure to introduce Mr. Wahler.

STATEMENT OF HON. BRIAN C. WAHLER, MAYOR, PISCATAWAY TOWNSHIP, 
     NEW JERSEY AND PRESIDENT, NEW JERSEY STATE LEAGUE OF 
                         MUNICIPALITIES

    Mr. Wahler. I think, Senator, with that introduction, that 
is good for 10,000 votes in my town.
    [Laughter.]
    Mr. Wahler. I want to thank Chairwoman Fischer and Senator 
Booker and the rest of the Committee for inviting us before the 
Subcommittee today.
    In June 1996, the American Highway Users Association issued 
a report, ``Forty Years of the U.S. Interstate Highway System: 
An Analysis. The Best Investment a Nation Ever Made.'' The 
report noted that it is not an exaggeration but a simple 
statement of fact that the interstate highway system is an 
engine that has driven 40 years of unprecedented prosperity, 
positioning the United States to remain the world's preeminent 
power in the 21st century. It was estimated that the total 
construction cost of the interstate highway system through 1995 
was $329 billion in 1996 dollars, and $58 billion in 1957 
dollars.
    It was conceived as a pay-as-you-go system that would rely 
primarily on Federal imposed user fees on motor fuels. The 
Federal user fees per gallon of gasoline was increased by one 
cent, and the Federal user fee provided 90 percent of the costs 
of construction, with the balance primarily paid by state user 
fees.
    For that investment, the Nation as a whole reaped a direct 
economic productivity benefit of at least $6 for every dollar 
spent on construction, and that was just the beginning. There 
were additional benefits, such as higher employment rates and 
greater economic opportunity that could not be quantified.
    The report noted that for the first 40 years, the 
interstate system had enriched the quality of life for 
virtually every American, saved lives of at least 187,000 
people, prevented injuries to nearly 12 million people, 
positioned the Nation for improved international 
competitiveness, and enhanced national security.
    Isn't it scary to think that our Nation would have looked 
like in 1996 if President Eisenhower and the leaders in 
Congress in 1956 had not made this critical investment for fear 
that raising the fuel fee would anger voters?
    Let me tell you little bit about the New Jersey 
transportation infrastructure. Just last year, the American 
Society of Civil Engineers reported that New Jersey has 39,272 
centerline public road miles. We have 6,800 miles of major 
roads, 35 percent of which are, according to the report, in 
poor condition; 651 of the 6,500 bridges in New Jersey, 9 
percent, are considered structurally deficient; and well over 
1,700 are considered functionally obsolete.
    That report also estimated that driving on roads in need of 
repair costs New Jersey motorists $3.4 billion a year in extra 
vehicle repairs and operating costs, $601 per motorist, and 
that 66 percent of New Jersey roads are in poor to mediocre 
condition.
    But it is not just New Jersey natives and New Jersey 
businesses using these roads. Our ports handled well over 150 
million short tons of cargo in 2012, ranking us number four in 
the Nation. The freight that wasn't carried to the customers 
through the eastern half of the Nation by our 18 freight 
railroads on 989 miles of rail also ended up on these roads, 
and so did the freight trucked between New York and 
Philadelphia or between Boston and Baltimore, or are almost 
anywhere between Miami and Maine.
    For these reasons, New Jersey roads carry more vehicles per 
mile per day than any other state. And the wear and tear those 
roads experience would be worse if not for the fact that New 
Jersey transit carries over 295,000 riders every day, and our 
light rail system takes 82,000 commuters off the road, and our 
public bus system, including N.J. Transit and contract buses, 
carry over 570,000 riders every workweek.
    Historically, New Jersey was at the crossroads of the 
revolution. Today, we are host to a number of America's vital 
economic and commercial arteries. Our Department of 
Transportation reports that New Jersey municipalities are 
responsible for 64 percent of the 28,400 centerline roadway 
miles on our roads. County governments are responsible for 
another 22 percent, which equals 6,600 centerline roads.
    Together, local governments are responsible for more than 
39 percent of our bridges. Our local roadway and bridges carry 
about 55 percent of all of our traffic.
    Local officials know that investments in these assets must 
be made. Failure to do so compromises the safety of the public 
and economic vitality of our communities and our security in 
our neighborhoods.
    Municipalities and counties throughout this Nation 
collectively own 78 percent of the Nation's roadway miles, 43 
percent of the Nation's Federal aid highway miles, and 50 
percent of the Nation's bridge inventory, and operate a 
majority of the Nation's transit systems.
    According to a 2000 Pew Charitable Trust analysis, cities 
and counties collectively spend $75 billion annually on 
highways and transit, just 4 percent less than states are 
investing. At the New Jersey League of Municipalities, it is 
our firm belief that local officials responsible for a vast 
majority of the system are best situated to direct available 
transportation resources to projects that best serve 
communities in the region.
    Despite owning a majority of the share of the country's 
transportation network and making substantial investment in 
surface transportation infrastructure, local governments and 
their metropolitan planning organizations receive a relatively 
small share of the overall Federal transportation funds. MAP-21 
further strained local governments by decreasing by 30 percent 
the amount of highway funds available for transit 
infrastructure. Increasing locally available Federal 
transportation funds would have tremendously benefited the 
Nation's economy without disruption.
    For those reasons, the National League of Cities, the U.S. 
Conference of Mayors, the National Association of Counties, and 
the Association of Metropolitan Planning Organizations hereby 
want reauthorization of local surface transportation 
alternatives. We use the congestion mitigation programs that 
are very helpful to our residents.
    And last but not least, the economic case for investment in 
our long-term infrastructure is clear. We know it will grow the 
economy, create jobs, and position us for long-term growth. And 
the moral case for this action is plain. What will we leave the 
costs of disinvestment to our children? What will they say when 
they look at it 40 years from now?
    Thank you, Madam Chairwoman.
    [The prepared statement of Mr. Wahler follows:]

Prepared Statement of Hon. Brian C. Wahler, Mayor, Piscataway Township, 
  New Jersey and President, New Jersey State League of Municipalities
    In June of 1996, the American Highway Users Association issued a 
report, ``40 Years of the U.S. Interstate Highway System: An Analysis. 
The Best Investment A Nation Ever Made.'' That report noted ``It is not 
an exaggeration, but a simple statement of fact, that the interstate 
highway system is an engine that has driven 40 years of unprecedented 
prosperity and positioned the United States to remain the world's pre-
eminent power into the 21st century.''
    It was estimated that the total construction cost of the interstate 
highway system, through 1995, was $329 billion in 1996 dollars ($58.5 
billion in 1957 dollars). It was conceived as a ``pay as you go'' 
system that would rely primarily on federally imposed user fees on 
motor fuels--the Federal user fee per gallon of gasoline was increased 
by one cent. That Federal user fees provided 90 percent of the cost of 
construction with the balance provided primarily by state user fees.
    For that investment, the Nation as a whole reaped a direct economic 
productivity benefit of at least $6 for each $1 spent in construction. 
And that's just the beginning--there were additional benefits such as 
higher employment rates and greater economic opportunity that could not 
be quantified.
    The report noted that in those first 40 years, the Interstate 
system had:

  <bullet> enriched the quality of life for virtually every American;

  <bullet> saved the lives of at least 187,000 people;

  <bullet> prevented injuries to nearly 12 million people;

  <bullet> positioned the Nation for improved international 
        competitiveness; and

  <bullet> enhanced national security.

    Isn't it scary to think what our Nation would have looked like in 
1996, if President Eisenhower and our leaders in Congress in 1956 had 
not made this critical investment because of a fear that the raised 
fuel fee would anger voters?
    Let's fast forward 18 years from the1996 review to July, 2014, when 
a report was released by the National Economic Council and the 
President's Council of Economic Advisors--``An Economic Analysis of 
Transportation Infrastructure Investment.''
    That report stated:

  <bullet> Today (2014) there are more than 4 million miles of road, 
        600,000 bridges, and 3,000 transit providers in the U.S. And 
        yet, over the past 20 years, total federal, state, and local 
        investment in transportation has fallen as a share of GDP--
        while population, congestion, and maintenance backlogs have 
        increased.

  <bullet> The U.S. lags behind many of its overseas competitors in 
        transportation infrastructure investment. In the most recent 
        World Economic Forum rankings, the U.S. had in less than a 
        decade fallen from 7th to 18th overall in the quality of our 
        roads.

  <bullet> 65 percent of America's major roads are rated in less than 
        good condition, one in four bridges require significant repair 
        or cannot handle today's traffic, and forty five percent of 
        Americans lack access to transit.

  <bullet> Americans spend 5.5 billion hours in traffic each year, 
        costing families more than $120 billion in extra fuel and lost 
        time.

  <bullet> American businesses pay $27 billion a year in extra freight 
        transportation costs, increasing shipping delays and raising 
        prices on everyday products.

  <bullet> Underinvestment impacts safety too. There were more than 
        33,000 traffic fatalities in 2013 alone and roadway conditions 
        are a significant factor in approximately one-third of traffic 
        fatalities.

    Citing recent research, the report noted that transportation 
investments affect not only the level of economic output but geographic 
distribution of economic activity. In other words, like a Field of 
Dreams, if you build it, they will come. And they will bring their 
checkbooks with them.
    Reduced transportation costs, produced by investments in 
infrastructure in the past, facilitated the growth of cities across the 
United States. Chicago, for example, grew in size and importance 
because it served as a central hub between the fruitful plains of the 
mid-west and the markets of the northeast and Europe.
    Infrastructure investment can also raise property values, 
particularly if these investments bring about improvements in local 
living standards (including shorter commute times and greater proximity 
to desirable amenities).
    A strong and efficient infrastructure network is critical to 
maintaining U.S. competitiveness in a global marketplace. However, in 
recent years, the United States has fallen considerably behind other 
advanced countries when it comes to total transportation investment.
    Taken together, total spending as a share of GDP has been falling, 
from about 3 percent of GDP in 1962 to only 1.4 percent today. That's 
more than a 50 percent decline. These investment flows show up in 
business leader evaluations of the United States as a place to do 
business. For example, in the World Economic Forum's latest Global 
Competitive Index, the U.S. ranked 10th for transportation, 18th for 
roads, and 19th for quality of overall infrastructure--well below other 
advanced economies. We are well behind countries including Poland, 
Estonia, Hungary, Spain and Greece.
    If we, in the U.S., want to remain an economic leader, it is 
obvious that we need to reverse these trends. If we want the best for 
our people, our businesses and the future of our children, we need to 
imitate the intelligence and the integrity exhibited by President 
Eisenhower and our leaders in Congress in 1956.
    Let me tell you a little bit about New Jersey's Transportation 
Infrastructure.
    Just last year, the American Society of Civil Engineers (ASCE) 
reported that New Jersey has 39,272 centerline miles of public roads. 
We have 6,822 miles of major roads, 35 percent of which are, according 
to that report, in poor condition. 651 of the 6,554 bridges in New 
Jersey (9.9 percent) are considered structurally deficient and 1,717 
(26.2 percent) are considered functionally obsolete. That report also 
estimated that driving on roads in need of repair costs New Jersey 
motorists $3.476 billion a year in extra vehicle repairs and operating 
costs--$601 per motorist, and that 66 percent of New Jersey's roads are 
in poor or mediocre condition.
    But it's not just New Jersey natives and New Jersey businesses 
using those roads. Our ports handled 152.7 short tons of cargo in 2012, 
ranking us 4th in the Nation. The freight that wasn't carried to 
customers throughout the Eastern half of the Nation by our 18 freight 
railroads on their 983 miles of rail, also ended up on those roads. So 
too did any freight trucked between New York City and Philadelphia--or 
between Boston and Baltimore--or
    almost anywhere between Miami and Maine.
    For these reasons, New Jersey roads carry more vehicles per mile 
per day than those in any other State. And the wear and tear those 
roads experience would be even worse if not for the fact that New 
Jersey Transit trains carry 295,000 riders every day. Our Light Rail 
system takes 82,000 commuters off the roads. And our public bus system, 
including NJ Transit and contract busses, carries over 570,000 riders 
every work day of the week.
    Historically, New Jersey was the Crossroads of the Revolution. 
Today, we are host to a number of America's vital economic and 
commercial arteries.
    Our State's Department of Transportation (DOT) reports that New 
Jersey's municipalities are responsible for 64 percent (28,539 center 
line road miles) of our roads. County governments are responsible for 
another 22 percent (6,649 center line road miles). Together, local 
governments are responsible for 39 percent of our bridges. Local 
roadways and bridges carry about 55 percent of all traffic.
    Local officials know that investments in these assets must be made. 
Failure to do so can compromise the safety of the public, the economic 
vitality of our communities and the security of our neighborhoods.
    Municipalities and counties, throughout the Nation, collectively 
own 78 percent of the Nation's road miles, 43 percent of the Nation's 
federal--aid highway miles, 50 percent of the Nation's bridge 
inventory, and operate a majority of the Nation's transit systems. 
According to a 2015 Pew Charitable Trusts analysis, cities and counties 
collectively spend $75 billion annually on highways and transit, just 
four percent less than what states are investing.
    At the New Jersey League of Municipalities, it is our firm belief 
that local elected officials, who are responsible for the vast majority 
of the system, are best situated to direct available transportation 
resources to projects that best serve their communities and regions.
    Despite owning a majority share of our country's transportation 
network and making a substantial investment in surface transportation 
infrastructure, local governments and their metropolitan and regional 
planning organizations receive a relatively small share of overall 
Federal transportation funds. MAP--21 further strained local 
governments by decreasing--by 30 percent--the amount of highway funds 
available for the transportation infrastructure they own. Increasing 
locally available Federal transportation funds would have tremendous 
benefits for the Nation's regional economies, without major disruptions 
to the underlying legislative approaches.
    For those reasons, we join with the National League of Cities, the 
U.S. Conference of Mayors, the National Association of Counties, the 
Association of Metropolitan Planning Organizations, the National 
Association of Regional Councils and the National Association of 
Development Organizations to urge you to sub-allocate more funding to 
local decision--makers and local areas under the Surface Transportation 
Program, the Transportation Alternatives Program, and the Congestion 
Mitigation and Air Quality Program. We also seek reaffirmation of 
longstanding Federal commitments to the more than 177,000 federal--aid 
highway bridges (or ``on--system bridges'') that are not a part of the 
designated National Highway System, which lost access to predictable 
funding after MAP--21 took effect.
    The economic case for investment in our long-term infrastructure is 
clear--we know it will grow the economy, create good jobs, and position 
us for long-term growth. The moral case for action is just as plain. 
Will we leave the costs of disinvestment to our children? What will 
they say when they write their transportation infrastructure reports, 
40 years from now?
    This is the month when Congress decides, and the time for action is 
now.

    Senator Fischer. Thank you, Mr. Mayor.
    We will begin our first round of questions.
    Senator Bramble, in your written testimony, you explained 
that Utah established a funds exchange program through the Utah 
State Transportation Commission. I established a similar 
program in Nebraska that has seen statewide success in 
jumpstarting a number of projects.
    Can you explain how your program has worked in Utah, and 
how it is providing flexibility to local governments for 
infrastructure projects? And do you have any examples of 
success?
    Mr. Bramble. Thank you, Madam Chairwoman. It is a great 
question.
    In Utah, we have a fund transfer exchange program where the 
state will put up dollars for political subdivisions, and then 
when we get reimbursed when Federal dollars come in, we provide 
85 percent to the local government, and then we receive the 
reimbursement from the Federal Government.
    It is not that much different than what the State of Utah 
did on the major transportation artery for our state, 
Interstate 15. That goes from Idaho to Nevada. It is the main 
north-south transportation link.
    In the state of Utah, the largest infrastructure project in 
our state's history, rebuilding Interstate 15 in Utah County, 
which is the county I represent, was done completely with State 
dollars, because of the uncertainty of Federal dollars. And 
that's really a variation on that theme. When Federal dollars 
come in, we will apply it to other projects.
    It is really a timing issue, and by providing that 
flexibility, we are able to meet the most critical and 
immediate needs, regardless of the inaction of Congress. The 
challenge with that is that is not a substitute for the Federal 
Government's obligation to meet the transportation funding 
needs.
    Senator Fischer. Do you have any idea how much your 
Department of Transportation has helped those local governments 
save in seeing projects speeded up?
    Mr. Bramble. It's in the hundreds of millions of dollars. I 
don't know the exact number, but it has been substantial. And 
it has been a real success, because of the municipalities, they 
are able to move forward with their projects backed by the 
state, and the state has perhaps a little bit more flexibility 
than a local, city, town, or county.
    Senator Fischer. But those savings I believe are 
substantial, when you're looking at the limited resources that 
we have.
    Mr. Bramble. I don't know the exact number. I'm a CPA, and 
so I don't want to throw out a number that I couldn't defend, 
but it has been substantial.
    Senator Fischer. Understood.
    Senator, you mentioned in your written testimony also, in 
MAP-21, that there were efforts made to streamline the 
regulatory review. Did the changes in MAP-21 go far enough, do 
you believe? Are you still seeing delays in projects that are 
moving in Utah? And can you offer us any recommendations in 
moving forward?
    Mr. Bramble. Let me start with the last part of that.
    States need flexibility. If you look at the transportation 
needs, Senator Booker indicated the rail corridor in the 
Northeast. The challenges of building an infrastructure in a 
state like Utah that has 70 percent of the land mass owned by 
the Federal Government, and where we have urban areas, but we 
have vast tracts of very remote areas; that is far different 
than what you see in the Northeast. So the needs of the states 
are different.
    The safety concerns, if you look at building a road that 
has to go across a 10,000 foot mountain pass, that may be 
different than building a road in Nebraska.
    So the flexibility, the one-size-fits-all standard, or even 
if you have a couple different alternatives, we need more 
flexibility. So I would say that yes, it was helpful. It didn't 
go far enough. States really need flexibility to meet the 
unique conditions that we find in each of our states.
    Senator Fischer. Thank you, Senator.
    Ms. Kavinoky, in your written testimony, you mentioned that 
the Chamber has a long-standing position in support of our 
national freight policy. Could you explain to the Committee 
what you view that policy as looking like? Do you have examples 
of things happening in the states, too, how they use those 
transportation dollars to address that?
    Ms. Kavinoky. Certainly. What we have heard from Chamber 
members time and time again is that businesses look end-to-end 
when it comes to their supply chains. They are looking origin 
to destination. They are not interested in squabbles over which 
mode is best or which jurisdiction is in charge.
    They want the ability of the Federal Government, when it 
comes to freight, to set a strategic approach, to give 
flexibility, so that the right decisions can be made. And then 
they want help cutting through red tape at all levels of 
government to make sure that, if they locate a plant somewhere, 
it can get the trucking service, the rail service, and the 
inland waterway service it needs. They are looking very, very 
comprehensively.
    We consistently hear that the need to address bottlenecks 
on our Nation's roadways is of critical importance, and I think 
that that has been proven time and time again.
    We hear talk, and Senator Booker knows this very well in 
northern New Jersey, of the need to balance both freight and 
passenger traffic. The New Jersey Turnpike is a prime example 
of something that is both a commuter corridor as well as a 
freight corridor.
    Some states have taken more strategic approaches and are 
working together. The I-69 Corridor coalition, the Ports to 
Plains Corridor coalition through the Midwest have both taken 
the view that we need to facilitate trade and goods movement 
north to south.
    We have certainly heard in states that have border 
crossings that it is critically important to help facilitate 
goods movement at those bottlenecks.
    And in places where ports, whether those are inland ports 
on the waterways, whether those are seaports, or those are 
airports that are facilitating high-value goods movement, we 
have heard from all of them that the capacity to move goods 
between modes is of critical importance.
    Everyone points to the CREATE Program in Chicago as 
something that is an example of a good public-private 
partnership to try and unblock the rails there in transit, as 
well to what Norfolk Southern has been able to do with the 
Crescent Corridor.
    But fundamentally, we are looking from origin to 
destination.
    Senator Fischer. Thank you very much.
    Ms. Kavinoky. You're welcome.
    Senator Fischer. Senator Booker?
    Senator Booker. Thank you very much.
    As I suspected, and saw in your written testimonies, 
everybody on the panel echoed the urgency of the moment.
    Mr. Mayor, I would love to just pounce on you for a second, 
if I could. Not in a physical way. I mean verbally.
    [Laughter.]
    Mr. Wahler. I think my wife beat you to that.
    [Laughter.]
    Senator Booker. Mayor, you talked about the impact of not 
investing. But can you speak from sort of a personal sense as a 
mayor, what is the cost of this decaying infrastructure right 
now, as you see it?
    Mr. Wahler. I think after this very harsh winter in the 
Northeast, I think everybody can relate to out-of-aligned 
suspension systems and things like that, blown tires, which, in 
this day and age, some of these tires can run $400 a shot.
    So when you have infrastructure to that effect decaying and 
creating problems at the local level, I know within my own 
community, we have a backlog of $40 million in road projects 
ready to go where we have all the right-of-way acquisition and 
where we can actually physically put it out to bid, but we only 
do about $5 million a year at the local level.
    So if you multiply that in New Jersey with all the 
municipalities with local projects, you have the potential to 
singlehandedly really gin up the economies in certain regions 
of the country with the backlog of projects. You have a lot of 
these bridges that tend to be 100 years old or more, these 
culvert bridges at the county level, some at 50 years. They 
don't get any cheaper to refurbish and rebuild.
    Senator Booker. That is the point I want to go a little 
further with. Mr. Bramble mentioned some of this in his 
testimony.
    He also mentioned that he is a CPA, which I am not, but we 
need more of in Congress. I hope you think about that.
    But the reality is, you and I both know from having to run 
cities that the more you put off capital maintenance, the more 
the cost goes up. So from your perspective, waiting on the 
investments we are making, the deferred maintenance, what is 
that doing to the cost?
    Mr. Wahler. It's obviously, Senator, driving the cost up. 
For Senators on the panel, even hypothetically, if a 
municipality or county or state entity can hire an engineering 
firm, depending upon on the largeness of the scope of the job, 
you are looking at 7 or 8 years down the road before a shovel 
gets in the ground. So you need to start planning now in the 
respect that it takes a while, depending upon what the 
regulatory process is in any given state, to get the approval 
for permits.
    But I don't know if a lot of our infrastructure can wait 7 
or 8 years. When I tell residents within our community, ``Your 
road is in the queue. However, it may be 3 or 4 years down the 
road,'' what we're doing is sending the department of public 
works or engineering division out to do minor patches out there 
and hope that something seriously is not going to happen to the 
motoring public or those biking or walking along the roadways.
    Senator Booker. And those minor patches add to the total 
cost of repairs.
    Mr. Wahler. Absolutely.
    Senator Booker. So I have a final question for the panel, 
but my penultimate question to you, because I think you 
mentioned it when you started talking about the history of the 
infrastructure we have, Republicans, Democrats coming together 
to make these investments, you talked in about the moral 
courage of politicians to make the tough calls that ultimately 
will benefit our grandchildren. Can you just touch on that for 
a second?
    Mr. Wahler. I was fortunate enough, I had a prior life to 
being a mayor. I actually worked on Capitol Hill for the late 
Speaker O'Neill. He would always comment that there is no 
Democratic or Republican way to fill a pothole. Being an 
elected official, I always viewed that when it came to 
transportation. And over time, it was always a nonpolitical 
issue, that elected officials always did the right thing, 
because they know that their citizens demand that action be 
done.
    No mayor can hide from their constituents in a grocery 
store or anything like that when there is a problem. Maybe 
Senators can, but I don't know.
    Senator Booker. Hey, hey.
    [Laughter.]
    Mr. Wahler. But with that being said, I'm very, very 
concerned. Having been Mayor for 15 years and working with a 
lot of colleagues at the national level through the National 
League of Cities, the U.S. Council of Mayors, we're very 
frustrated at this point. We have a way of getting a lot of 
these projects up and starting a lot quicker than the Federal 
or State governments can. And the truth of the matter is, 60 
percent of the roadway miles in this country are at the local 
level that feed into the state and national roadway network 
system.
    Senator Booker. I'm going to have to make that my last 
question. Hopefully, I will get another round. I will now turn 
it over to the savvy and tech-savvy Senator McCaskill.
    Senator Fischer. Look at you running the place.
    [Laughter.]

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Yes, he likes this.
    Senator Booker. I'm sorry. I'm so sorry. I forget my place. 
I am the junior, junior, junior Senator from New Jersey.
    Senator McCaskill. Madam Chair, may I proceed?
    Senator Fischer. Yes, please do.
    [Laughter.]
    Senator McCaskill. Thank you so much.
    Senator Booker. It's a good thing that the women are 
running this place.
    Senator McCaskill. You are outnumbered, Booker.
    Senator Booker. I am.
    Senator McCaskill. Be careful. Between the two of us, Deb 
and I can do some damage.
    I thank you all for being here today. As the Chair said, 
this is our third hearing on the importance of long term. I 
think we are 26 days away, and we have no bill. There is not 
even a bill.
    Now, this is kind of a joke that there is not even a bill, 
and we are 26 days away. So let me just be very clear. It is 
clear to me that the only thing that they are going to do is a 
patch.
    And my question to you--how do you pronounce your last 
name?
    Ms. Kavinoky. It is Kavinoky.
    Senator McCaskill. Kavinoky. If some of us were to decide 
that we are done with short-term patches that do irreparable 
harm to our economy and to predictability and sustainability, 
that gets a lot of jawing around here about how much we care 
about that, is the Chamber willing to score that vote for those 
of us who would rise up and say we are done with a 2-month 
patch or 7-month patch, and it's time for us to do our work and 
take the tough votes?
    Ms. Kavinoky. I think that the Chamber shares your 
frustration.
    Senator McCaskill. Will you score it?
    Ms. Kavinoky. If we are presented with an opportunity to 
send up a key vote, and the choice is let's do a really long 
patch or something short enough to keep the pressure on this 
summer, I think we will score it.
    Senator McCaskill. Well, I would really like to know that, 
because the U.S. Chamber of Commerce is very powerful around 
here. Everybody runs around wondering about scores.
    So the record is clear, what a score is, it is people who 
work to influence legislation who keep a grade card of how 
Senators do. Some of us believe that some of those groups have 
selective scoring, because they don't want to step on the toes 
of certain people in Congress by scoring something that would 
make it uncomfortable for them.
    I just implore you to begin scoring this. I mean, look what 
we have. We have Export-Import Bank, a huge problem for 
businesses in this country, if that is not renewed. We have 
debt ceiling, a huge problem for our economy, if that is not 
handled appropriately. We have financing of highways and 
infrastructure in this country that, frankly, we all agree 
with. We all want to do it.
    But we are all sitting around here and we are acting as if 
something is going to change as a result of this great hearing 
when we know full well--everyone sitting here knows--we are 
talking about another patch.
    Ms. Kavinoky. Senator, we have scored every transportation 
vote and used those scores in our scorecard over the last 
several years.
    Senator McCaskill. Well, my scorecard is never very good 
and I just want to know----
    [Laughter.]
    Ms. Kavinoky. You know, it's kind of that multi-issue 
thing. And I know sometimes we don't always see eye to eye.
    Senator McCaskill. It's a little confusing for some of us 
who have had pretty moderate voting records, in fact.
    Ms. Kavinoky. But on this one, we see clearly eye to eye.
    Senator McCaskill. OK, then I think it's time you let 
everybody know, and all your membership should let everybody 
know, that you are done with this.
    The American people should be done with this. We need a 
bill. I mean, just give us a bill that we can disagree on. At a 
minimum, it shows we are trying, right?
    Does anybody know if there have been any studies that have 
shown the economic impact of our inability to take a tough vote 
around here? The short term, let's say, we're going to do it 
for 3 months or 2 months so we can get out of town and get 
beyond the looming deadline.
    Do you know of any studies that have been done, for 
example, on the shutting down of the Government or the 
threatened shutdown, all of this fits and starts and 
legislating by crisis and deadline? Has anybody looked at the 
long-term impact of those on job loss and job sustainability?
    Mr. Yaksich. I'm not aware of a particular study, a 
specific study to the points you raise to the highway program 
and short-term extensions.
    Part of the challenge, the leverage of the industry, is 
that there is that pressure to have the continuation of 
funding, so there isn't a disruption, so contractors aren't 
laid off, and the program and money is halted coming out of the 
DOTs. So in terms of an impact, the money has continued to flow 
through these short-term extensions.
    As I said in my statement, it is disruptive for capital 
investments and just across-the-board. To trickle down through 
the economy, that uncertainty just adds a challenge for the 
economy.
    Mr. Wahler. Senator McCaskill, if I may highlight some of 
what the panelists are saying here, it short term does not do 
towns and counties any good, because you have engineered 
projects out there that are ready to go with the current 
regulations. What happens is that if they become stale, the 
next thing you know, there's a change order to modify the plans 
to whatever new Federal or State DOT guidelines, which ends up 
costing local taxpayers more money.
    So we are ready. We have a backlog of projects to go at the 
local and national level. So we're not in favor of short-term 
fixes. We want a long-term source of funding and certainty. 
That is the keyword. We need certainty.
    Senator McCaskill. Not patching and letting it go would be 
short-term pain, but it might be the long-term gain that we 
need.
    Thank you all very much.
    Thank you, Madam Chairman.
    Senator Fischer. Thank you, Senator.
    Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I want to thank the Chairman.
    I thank all of you for being here today.
    And I, certainly, hearing the end of my colleague Senator 
McCaskill's comments, I think all of us feel that doing the 
longer term reauthorization would be the right thing to do for 
certainty in planning and communities.
    I wanted to follow up, Senator Bramble, in New Hampshire, 
I'm sure like in your state, there are projects that are very 
important and significant, and they are multiyear projects. 
That is one of the reasons why you need to be able to plan over 
a multiyear basis.
    In New Hampshire, one of them is the widening of Interstate 
93 from Salem to Manchester, New Hampshire. So we have a 
situation where many Granite Staters commute to Boston, and so 
that is a critical corridor in terms of traffic and their 
ability to have their jobs. And then also, we have it going the 
other way, which we are glad to have the residents from other 
states and Massachusetts going up to see our beautiful White 
Mountain region in New Hampshire.
    So this project has been underway for several years. And 
recently, the Assistant Commissioner of the Department of 
Transportation in New Hampshire has been in the process, which 
I've supported, of applying for credit assistance under the 
Transportation Infrastructure Finance and Innovation Act, or 
TIFIA.
    So in your testimony, I know that you had touched on, at 
least your written testimony, that this is an important 
mechanism for states and local communities, and the other 
financing mechanisms that states rely on to fund projects of 
national and regional importance.
    Could you further explain the National Conference of State 
Legislatures' support for an expansion of credit-based and loan 
guarantee programs to incentivize private sector investment, 
and what your thoughts are on what we need to do to ensure that 
these financing mechanisms are in place?
    I'm also someone who is a fan of sponsored legislation to 
further allow, whether it is State infrastructure banks, also a 
bill that would be the partnership to Build America, where it 
would leverage dollars and allow further financing mechanisms, 
and also private sector support.
    So I wanted to get your thoughts on these financing 
mechanisms and what more we could do.
    Mr. Bramble. The issue of flexible financing options, that 
hits home. Representing the state of Utah, we did something 
with a transportation project on Interstate 15 that was 
different. It wouldn't fit the Federal guidelines for 
financing. It doesn't directly address the TIFIA question.
    Let me give you an example of what we did in Utah. We have 
this interstate, and we have a debt limit, both a statutory 
debt limit in our state and we have a constitutional debt limit 
in our state, and we have this interstate that needed to be 
rebuilt. So instead of putting forward simply bids and saying 
how much will it cost to build this interstate from point A to 
point B, we knew how much we could authorize in terms of 
bonding.
    And this was a Federal highway, Interstate 15, but it was 
all State funds. We authorized $2 billion of bonding, and then 
we went out to the private sector and we said OK, we have 
authorized $2 billion of bonding, tell us how far you can go on 
this interstate, because our needs are greater than Point A to 
Point B.
    Instead of it costing $2 billion for Point A to Point B, 
which happened to be an interchange at American Fork to what is 
called University Parkway, it is about a 17-mile stretch, we 
actually rebuilt about 24 miles and it cost us $1.5 billion 
because the flexibility in how we approached the bidding 
process was entirely different than what the Federal guidelines 
would have allowed for.
    The way we built the bridges is different than what the 
Federal Government would have allowed for. We built the bridges 
on the side of the road, lifted them and put them in place in a 
very innovative way. We kept three lanes of traffic open in 
both north and south directions during the entire project but 
for a very limited overnight closing from 10 p.m. until 5 a.m.
    The reason I point that out, the opportunity for flexible 
financing, and when I say financing, not just sources of funds 
in terms of revolving loans or those kinds of things, but in 
terms of how you approach the design-build, all of those things 
contributed to a $2 billion project that only would've been 17 
miles being actually a little bit more than 24 miles costing 
$1.5 billion.
    That is a model that would be helpful if those principles 
would be adopted by the Federal Government.
    Senator Ayotte. So if we could give you more flexibility, 
obviously, the financing is a big piece, but more flexibility 
to have innovative solutions at the State and local level, is 
that something that would be positive in allowing you to 
stretch the dollars that we give you further?
    Mr. Bramble. Absolutely. A couple of your grant programs, 
18 states have ignition interlock laws for offenders, but only 
four states qualified under the very stringent Federal 
guidelines for a grant. We have 40 states applied and only one 
qualified for distracted driving programs. And while every 
state has implemented a three-stage graduated drivers license, 
no state in Fiscal Year 2013 or 2014 qualified for a grant 
based on the Federal program, because of the very stringent, 
inflexible criteria.
    What works in New Hampshire may not work in Nebraska and it 
may not work in Utah. Each of our states have unique--and by 
the way, your White Mountains, I've ridden a motorcycle through 
them. It is beautiful.
    Senator Ayotte. Excellent.
    Mr. Bramble. But it is different in your state than other 
states.
    Senator Ayotte. Absolutely. And I think we need to give 
your ability to stretch these dollars and have your unique 
solutions in each of your states and in each state in this 
country to be able to make sure that we can get more projects 
done.
    So I appreciate all of you being here. Thank you.
    Senator Fischer. Thank you, Senator Ayotte.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair, and 
thank you to you as well as Ranking Member Booker. I look at 
your two states and think about them. They are little different 
in their transportation needs.
    But I'm very glad you held this hearing, and I'm hopeful 
that we are going to come up with some solution here.
    One of the concerns I have, and I think, Mr. Wahler, you 
can relate to this, and certainly Utah can as well, just being 
a cold-weather state, and the uncertainty that is created by 
not knowing whether or not we are going to have a continual 
Highway Trust Fund is exacerbated when you have a shorter 
construction season.
    And in Minnesota, it is pretty short. We always say that we 
have two seasons, mosquito season and then winter, and that's 
it. The construction season and the mosquito season are the 
same.
    So can you talk a little bit about, I know Senator 
McCaskill touched on this, but the uncertainty that is created 
and how this in particular can affect construction projects 
where cold-weather states don't even want to go ahead and they 
stop in their tracks? I understand there are number of states 
that have stopped letting out contracts.
    Mr. Wahler. If I may, Senator, one of the things, because 
of the severity of this last winter, the frost line, which 
would be typically 3 feet in New Jersey, went down to 3.5 feet, 
which undermined a lot of the roads. Now I know the frost line 
is a little bit more in your state, obviously.
    However, what we have had to do is we have had to start our 
reconstruction projects typically a lot sooner now this year. 
As we speak, my Department of Public Works is paving three 
streets today, because we're trying to get every available day 
in. You're at the mercy of the weather. You can't pave when 
it's raining out. So we're trying to get everything in before 
the cold weather starts in October.
    This all goes back to the certainty issue. We don't want a 
short-term fix. I know that may sound like something nice here 
at the Federal level, but the truth of the reality is that the 
business sector, the elected officials, we need certainty. That 
is the key word, and I can't emphasize that enough.
    I'm very concerned about a lot of projects that are going 
stale, which I have to go back and tell my councilmembers 
there's going to be a change order because the Federal or State 
rules have changed, or whatever, and it drives up the overall 
cost of road projects. I think it is critical.
    I'll give you a quick example. Route 18, which is a State 
road in my town, which is Rutgers University, it has taken 48 
years to get to the point where they are finally finishing the 
last 3 miles of the roadway. So I had joked that I thought I 
would see it before I got my AARP card. Well, I was wrong.
    But the bottom line is that we can't be thinking 40 years 
out now when we have projects that need to go right away.
    Senator Klobuchar. I agree. That's part of the reason I got 
on the bill with Senator Warner and Senator Blunt and others, 
with this longer term infrastructure combined financing. 
Obviously, this idea of doing some kind of international tax 
reform, hopefully for the long term, is very appealing, if we 
could hook that into infrastructure. But it has to be something 
I would hope not just do the baseline amount, but it would 
actually add money into infrastructure funding.
    I don't know, Ms. Kavinoky, if you want to comment on any 
of that? Any solutions?
    Ms. Kavinoky. Sure. I think it is going to take a number of 
solutions in order to boost overall investment. We have spent 
the vast majority of our time over the last 10 years talking 
fundamentally about the Highway Trust Fund, which provides 
about 50 percent of all highway and transit capital investment. 
That is critical to fix.
    The Chamber is focused on revenue sources that are 
transportation related. We have concerns about using mandatory 
repatriation outside of comprehensive tax reform to pay for 
that. But we are focused on, let's get a solution.
    In addition to that, that is not going to solve all the 
problems, so proposals like infrastructure banks and funds, the 
Move America proposal that Senator Wyden just released 
yesterday, and others that would help promote other sources of 
financing, help the public sector finance at lower rates, help 
draw private capital, are going to be critical.
    Those are all tools that are being used worldwide, and they 
are ways that other countries are using to project their own 
economic power.
    But fundamentally, what I keep hearing from our members is, 
the solution set for the Highway Trust Fund hasn't changed for 
years. We had two big commissions, 2008 or so, that issued 
reports that looked through every possible revenue option. We 
haven't come up with any other magic, new solutions.
    This is a matter of getting the politics right, which we 
are certainly trying to help with, getting some sense of 
agreement on the policy, and then finding something in this 
legislative process to move the ball.
    Senator Klobuchar. OK. I think there are a lot of us 
interested in doing that.
    Last thing, and I won't ask a question, because my time is 
up. I just wanted to point out, to follow up on your comments, 
Mr. Bramble, just like the graduated license funding, I've been 
doing a lot of work for years on distracted driving. There's a 
program set up there. Right now, 70 percent of the funds are 
unused for the states. Only one state in 2014 qualified, and 
that would be Connecticut.
    We really need to change that. So Senator Hoeven and I have 
a bipartisan bill called the Improving Driver Safety Act, which 
makes some changes to the program to get the money out. Our 
states have high rates of distracted driving, and I'm hopeful 
when a bill does move with transportation, that this will be 
part of it. It is very important to change the criteria and get 
that money out to the states.
    Thank you.
    Senator Fischer. Thank you, Senator.
    Unless we have any other members show up, our next Senator, 
our last Senator to ask questions, will be Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair. And thanks for 
this important hearing.
    Ms. Kavinoky, I think you talked about freight in your 
testimony, or in a follow up question, so I did want to ask you 
about the National Freight Advisory recommendations that were 
released in 2014. They were about the efficient movement of 
global products, so that we can continue to compete 
effectively.
    Currently, do you believe that there is a sufficient 
investment at the Federal level in infrastructure improvements 
around freight? And if not, where do you think we should look 
for resources to fund those recommendations?
    Ms. Kavinoky. Thank you. The commission made 80 different 
recommendations around freight, and I think they took a very 
good and comprehensive look.
    As you know, in Washington state, it is about roads, rails, 
waterways, ports, and aviation to move goods. Across-the-board, 
we know that overall investment in transportation and in 
infrastructure, including freight, is insufficient. If it were 
a little bit more sufficient and targeted in the right way, 
maybe we wouldn't have people waiting 40 hours a year in 
traffic, or companies like UPS having to make sure that all 
their drivers make right turns so that they are saving millions 
of dollars a year.
    What we hear repeatedly is that the focus on intermodal 
connections and on the last mile is critical. It is no good to 
have bigger ships coming into ports, if you can't get those 
goods off the ships and where they need to go. We know that 
truck bottlenecks are absolutely critical, but we have to make 
sure we don't fix one bottleneck and just move it upstream.
    And then, of course, the Chamber has focused on the need to 
fully use the Harbor Maintenance Trust Fund. I know there are a 
lot of discussions about how to use that properly. But we need 
to make sure that that is being fully used, so our inland 
waterways and our ports, in addition, are getting the 
investment they need.
    I think there is a lot of room to work there, and we would 
be happy to talk with you about how to shape a freight program 
that works well.
    You raise a very important question, though, which is how 
to pay for it. As a member of the Freight Stakeholders 
Coalition and other groups discussing freight, what I 
discovered is that the conversation about how to pay starts 
breaking down when you get to that point. We have some members 
who say we already pay into the Highway Trust Fund. We have 
other members who say make sure we are not regulated so we can 
invest our own money. We have others who say maybe we ought to 
have a freight waybill.
    When you get the freight stakeholders together, there's not 
a lot of, as you probably know, consistent answers to that. And 
I have not figured out how we break through that disagreement 
and come up with a coherent approach.
    Senator Cantwell. For our state, I can just tell you that 
the identification of this as a necessary need for keeping our 
competitiveness and jobs, it was easier than when a new 
expansion was called for, then that group came forward and said 
we should get a percentage of that, a dedicated source for 
that. I don't know whether something like that is going to be 
considered here in Washington for a long time, so I think the 
freight coalition has to consider whether we should do 
something more along the lines of a user fee to help this issue 
in the near term.
    I don't know what your thoughts are on that, as opposed to 
the general strategy of when we have new revenue for 
transportation, let's get a piece of that dedicated toward 
these job-creating activities, or should we look at ways to 
identify some other sources right now and move ahead?
    Ms. Kavinoky. I think that it works to try to identify 
those other sources. Again, I think the challenge is defining 
what that user fee is and how it affects the different users, 
and that is where we have seen some disagreement among folks in 
the freight community.
    Senator Cantwell. OK.
    Mr. Yaksich, can improved planning, especially related to 
freight movement, and efficient goods and services, make 
limited resources go further? How should we think about this 
and your organization in identifying some of these 
infrastructure challenges?
    Mr. Yaksich. The planning is critical for the movement of 
goods, as I testified to in my statement, in terms of the 
supply chain. We are seeing such a diverse global supply chain 
coming that on-time delivery is critical in the parts and with 
that delivery is the planning.
    So planning and investment in planning is critical toward 
manufacturers, manufacturing success, and then getting product 
to the customer.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Cantwell.
    I'd like to thank, again, the panel members for being here 
today. I appreciate the good information that you have provided 
to the Committee.
    I would note that the hearing record will remain open for 2 
weeks. During this time, Senators are asked to submit any 
questions for the record. Upon receipt, the witnesses are 
requested to submit their written answers to the Committee as 
soon as possible.
    And with that, I will adjourn the hearing.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]

                                  [all]

                  This page intentionally left blank.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
